Report No. D-2007-099              June 13, 2007




                DoD Privacy Program
           and Privacy Impact Assessments
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
                                U                                   U




  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ASD(NII)              Assistant Secretary of Defense for Networks and Information
                         Integration
CIO                   Chief Information Officer
DITPR                 DoD Information Technology Portfolio Repository
FISMA                 Federal Information Security Management Act
FOIA                  Freedom of Information Act
GAO                   Government Accountability Office
IA                    Information Assurance
IT                    Information Technology
OMB                   Office of Management and Budget
PIA                   Privacy Impact Assessment
                              INSPECTOR GENERAL 

                            DEPARTMENT OF DEFENSE 

                             400 ARMY NAVY DRIVE 

                        ARLINGTON, VIRGINIA 22202-4704 



                                                                                   June 13,2007
MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND
                 INFORMATION INTEGRATION/DOD CHIEF INFORMATION
                 OFFICER
                 DIRECTOR OF ADMINISTRATION AND MANAGEMENT

SUBJECT: Report on Audit of DoD Privacy Program and Privacy Impact Assessments
         (Report No. D-2007-099)

     We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Assistant Secretary of Defense for Networks and Information Integration/DoD Chief
Information Officer comments were fully responsive to twelve recommendations and partially
responsive to three recommendations. We request additional comments from the Assistant
Secretary of Defense for Networks and Information Integration/DoD Chief Information Officer
on Recommendations C.l.a., C.2.a., and C.2.c. The Director of Administration and
Management comments were fully responsive to one recommendation, partially responsive to
two recommendations, and not responsive to seven recommendations. We request additional
comments from the Director of Administration and Management on all recommendations with
partial or not responsive comments. The Naval Postgraduate School comments were fully
responsive and do not require additional comment. Therefore, we request that the Assistant
Secretaiy of Defense for Networks and Information Integration/DoD Chief Information Officer
and Director of Administration and Management provide comments by July 13, 2007.

        If possible, please send management comments in electronic format (Adobe Acrobat
file only) to AudROS@dodig.mil. Copies of the management comments must contain the
actual signature of the authorizing official. We cannot accept the / Signed / symbol in place of
the actual signature. If you arrange to send classified comments electronically, they must be
sent over the SECRET Internet Protocol Router Network (SIPRNET).

         We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Kathryn M. Truex at (703) 604-8966 (DSN 664-8966) or Mr. Robert R. Johnson at (703)
604-9024 (DSN 664-9024). See Appendix D for the report distribution. The team members
are listed inside the back cover.

                                   By direction of the Deputy Inspector General for Auditing:



                                            Wanda A. Scott
                                            Assistant Inspector General
                                            Readiness and Operations Support
                Department of Defense Office of Inspector General
Report No. D-2007-099                                                         June 13, 2007
   (Project No. D2006-D000AL-0087.000)

          DoD Privacy Program and Privacy Impact Assessments

                                 Executive Summary

Who Should Read This Report and Why? The Assistant Secretary of Defense for
Networks and Information Integration/DoD Chief Information Officer; Director of
Administration and Management, Office of the Secretary of Defense; Director, DoD
Privacy Office; and Privacy and Chief Information Officers of the Military Departments
and DoD Components should read this report to obtain information about the
implementation of the DoD Privacy and Privacy Impact Assessment Programs. This report
discusses how DoD Components may be operating information systems that may not
prevent the compromise and misuse of the public’s personally identifiable information.

Background. In establishing the Privacy Act of 1974, Title 5 U.S.C. § 552a (as
amended), Congress found that the right to privacy is a personal and fundamental right
protected by the Constitution of the United States. The intent of the Privacy Act is to
require Federal agencies to protect individuals against unwarranted invasions of their
privacy through limiting the collection, maintenance, use, and disclosure of personal
information about them. The Act requires that Federal agencies establish information
practices that restrict disclosure of personally identifiable records and grants individuals
increased access to agency records maintained on them.

The Office of Management and Budget required agency heads to designate a senior
official within the agency to assume primary responsibility for privacy policy. The
Director, Administration and Management, Office of the Secretary of Defense, is the
designated DoD Senior Privacy Officer. The Director is required to report annually to
the Office of Management and Budget on the DoD Privacy Program. The annual privacy
report is currently included as an appendix to the DoD statutory report prepared for
section 3545, Public Law 107-347, Title III, “Federal Information Security Management
Act (FISMA),” December 17, 2002, of the E-Government Act of 2002.

The E-Government Act additionally requires that Federal agencies protect the collection
of personal information in Federal government information systems by requiring that
agencies conduct Privacy Impact Assessments. A Privacy Impact Assessment is an
analysis of how personal information is collected, stored, shared, and managed in Federal
information technology systems. The Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer is the principal staff assistant for
information technology matters relating to DoD Privacy Impact Assessments.

We visited officials from the offices of the Defense Privacy Officer and the DoD Chief
Information Officer, the Departments of the Army, the Navy, and the Air Force, the
Defense Threat Reduction Agency, the Washington Headquarters Service, and the
TRICARE Management Activity and 12 subordinate program offices responsible for the
security and privacy of the specific information technology systems selected for review.

Results. We performed the audit to determine whether DoD Components reported
consistent and valid information to the Office of the Secretary of Defense, the Office of
Management and Budget, and the Congress regarding management and protection of
personal information related to the DoD Privacy Program. We also evaluated DoD
compliance with Privacy Impact Assessment requirements and determined whether
safeguards were established to prevent the compromise and misuse of personal
information during its storage or transfer and were in accordance with Office of
Management and Budget and DoD guidance implementing the Privacy and
E-Government Acts.

DoD Components did not consistently implement Privacy Program policy for reporting,
collecting, safeguarding, maintaining, using, and disseminating personal information.
Specifically, DoD Components did not prepare system notices for systems of records,
mark documents with mandatory privacy statements, designate privacy officer
responsibilities, or conduct privacy training. As a result, the personal information
contained in DoD information systems could be vulnerable to access by unauthorized
personnel, and/or for unauthorized purposes (finding A).

DoD Components did not comply with the requirements of the E-Government Act of
2002 Privacy Impact Assessment program. Specifically, DoD Components did not
establish responsibilities for conducting, reviewing, approving, and reporting Privacy
Impact Assessments or posting those assessments to public Web sites. As a result, DoD
information systems may not conform to DoD and Federal policies that protect handling,
collecting, maintaining and disseminating privacy information. Additionally, DoD
Components may be operating information systems that may not be designed to prevent
the compromise and misuse of the public’s personally identifiable information
(finding B).

DoD Components did not complete Privacy Impact Assessments for information systems
containing personally identifiable information or accurately report Privacy Impact
Assessment information in the DoD Information Technology Portfolio Repository. As a
result, Component Chief Information Officers could not report accurate information from
the DoD Information Technology Portfolio Repository to the DoD Chief Information
Officer, the Office of Management and Budget, and the Congress. Additionally, security
risks associated with the protection of personal information may not be evaluated,
leaving the systems and the public’s information vulnerable to compromise or misuse
(finding C).

See the Findings section of the report for the detailed recommendations.

We found weaknesses in the DoD Component’s Management Control Programs for
reporting Privacy Impact Assessment information in the DoD Information Technology
Portfolio Repository and implementing privacy programs. For specific results of those
weaknesses, see the Finding sections of the report. The recommendations, if
implemented, will correct the identified weaknesses.

Management Comments and Audit Response. The Assistant Secretary of Defense for
Networks and Information Integration, Deputy Chief Information Officer concurred with
14 recommendations and partially concurred with 1 recommendation. However, the
Assistant Secretary of Defense for Networks and Information Integration, Deputy Chief
Information Officer comments were fully responsive to 11 recommendations and only
partially responsive to 4 recommendations. We agreed with the proposed actions for
establishing internal controls, evaluating the inventory of systems, and implementing
automated controls in the DoD Information Technology Portfolio Repository, but we
request additional details on the actions. The DoD Senior Privacy Official, Office of the
Director of Administration and Management generally concurred with the findings but

                                            ii
not with the recommendations. The comments stated that the Component Federal
Information Security Management Act Privacy reporting, which includes assessing
whether training programs are ensuring that personnel are generally familiar with privacy
policies, is a more effective tool for overseeing and reviewing Component compliance
with program requirements. The comments also stated that biannual certification
requirements would not remedy the training problems identified in the report. The
comments repeatedly stated that the current DoD Regulation on Privacy provides
guidance on training, that the revised Regulation has been expanded to provide additional
guidance as well, that Chief Information Officers do not have a direct role in the Privacy
Program, and that Chief Information Officers do have a critical role to play regarding
Privacy. Additionally, the comments stated that neither the Privacy Act nor the DoD
guidance requires that a Privacy Act statement be provided by a third party who is
furnishing information about an individual. We determined one of the DoD Senior
Privacy Official’s comments to be fully responsive, two comments as partially
responsive, and seven comments as not responsive. Therefore, we request that the
Director of Administration and Management provide additional comments on these
recommendations by July 13, 2007.

The Chief of Staff, Naval Postgraduate School concurred with the recommendations;
therefore, no further comments are required. We request that the Assistant Secretary of
Defense for Networks and Information Integration/DoD Chief Information Officer and
the Director of Administration provide comments on the final report by July 13, 2007.

Although not required to comment, the Department of the Navy and the Department of
the Air Force sent unsolicited comments. The Chief Information Officer, Department of
the Navy concurs with the need to update the Department of the Navy Privacy Instruction
to reflect changes in the management of the Privacy Program, policies, and practices.
The Director, Information Services and Integration (Office of Warfighting Integration
and Chief Information Officer), Department of the Air Force, concurs with the audit
findings and recommendations associated with the Privacy Act Program and Privacy
Impact Assessments. See the Findings section of the report for a discussion of
management comments and the Management Comments section of the report for the
complete text of the comments.




                                            iii
Table of Contents 


Executive Summary 	                                                          i


Background 	                                                                 1


Objectives 	                                                                 2


Review of Internal Controls 	                                                2


Findings
      A. DoD Privacy Program	                                                4

      B. Privacy Impact Assessments 	                                       17 

      C. Reporting in the DoD Information Technology Portfolio Repository   28 


Appendixes
      A. Scope and Methodology 	                                            38 

          Prior Coverage                                                    40 

      B. Forms Without Privacy Act Statements 	                             41 

      C. Systems Reviewed for Privacy Impact Assessments in the DoD 

           Information Technology Portfolio Repository                      42 

      D. Report Distribution 	                                              44 


Management Comments
      Assistant Secretary of Defense for Networks and Information
         Integration/DoD Chief Information Officer 	                        47 

      Director of Administration and Management 	                           53 

      Naval Postgraduate School 	                                           58 

      Department of the Navy 	                                              61 

      Department of the Air Force 	                                         63 

Background
    Privacy Act of 1974. In establishing the Privacy Act of 1974, Title 5, U. S. C.
    § 552a (as amended), Congress found that the right to privacy is a personal and
    fundamental right protected by the Constitution of the United States (see Public
    Law 93-579, 88 Stat. 1896, section 2). The objective of the Privacy Act is to
    balance the Government’s need to maintain information about individuals with
    the requirement that agencies protect individuals’ rights against unwarranted
    invasions of their privacy through limitations on the collection, maintenance, use,
    and disclosure of personal individuals’ information. The Act requires Federal
    agencies to establish information practices that restrict disclosure of personally
    identifiable records and grant individuals access to agency records maintained on
    them.

    The Office of Management and Budget (OMB) Memorandum 99-05
    Attachment A, “Privacy and Personal Information in Federal Records” May 14,
    1998, required agency heads to designate a senior official within the agency to
    assume primary responsibility for privacy policy. The Director, Administration
    and Management, Office of the Secretary of Defense, is the designated DoD
    Senior Privacy Officer and is responsible for implementing the DoD Privacy
    Program. The Director is required to report annually to OMB on the DoD Privacy
    Program. The annual privacy report is currently included as an appendix to the
    DoD statutory report prepared for Public Law 107-347, Title III, Section 301,
    44 U.S.C. § 3545 “Federal Information Security Management Act (FISMA),”
    December 17, 2002, of the E-Government Act of 2002.

    E-Government Act of 2002. The E-Government Act requires that Federal
    agencies protect the collection of personal information in Federal Government
    information systems by requiring that agencies conduct Privacy Impact
    Assessments (PIA). A PIA is an analysis of how personal information is
    collected, stored, shared, and managed in Federal information technology
    systems. OMB Memorandum 03-22, “OMB Guidance for Implementing the
    Privacy Provisions of the E-Government Act of 2002,” September 26, 2003,
    provides guidance to Federal agencies for implementing the privacy provision of
    the E-Government Act. OMB requires that Federal agencies conduct reviews of
    how information about an individual is handled within their agency when IT is
    used to collect, store, share, and manage personally identifiable information.

    The Assistant Secretary of Defense Networks and Information
    Integration/DoD Chief Information Officer (CIO) is the principal staff assistant
    for information technology matters relating to DoD PIAs and is responsible for
    issuing guidance for conducting, reviewing, and publishing PIAs. Deputy
    DoD CIO Memorandum, “Department of Defense (DoD) Privacy Impact
    Assessment (PIA) Guidance,” October 28, 2005, requires that system owners
    conduct a PIA on “all new or significantly altered Information Technology (IT
    systems or projects that collect, maintain, or disseminate personal information
    from or about members of the public - excluding information on DoD
    personnel).” The DoD PIA Guidance requires that the Component CIO review
    and approve PIAs and forward approved PIAs to the DoD CIO and OMB.



                                         1

           We reviewed the Privacy and CIO offices for DoD, the Departments of the Army,
           the Navy, and the Air Force, the Defense Threat Reduction Agency, the
           TRICARE Management Activity, and the Washington Headquarters Service
           12 subordinate program offices responsible for the security and privacy of the
           individual systems selected for review. We selected 18 systems for which PIA
           information was reported in the DoD Information Technology Portfolio
           Repository (DITPR). DITPR is, by policy, the Department’s authoritative
           unclassified inventory of IT systems and the repository for system information
           used to meet a wide variety of internal and external reporting requirements.


Objectives
           The overall objective of the audit was to determine whether DoD Components
           report consistent and valid information to the Office of the Secretary of Defense,
           OMB, and Congress regarding management and protection of personal
           information related to the DoD Privacy Program. We evaluated DoD compliance
           with PIA requirements and determined whether safeguards were in place that
           would prevent compromise and misuse of personal information while stored or
           while in transfer and whether they were in accordance with the OMB and DoD
           guidance. We also reviewed the Management Control Program as it related to the
           overall objective. See Appendix A for a discussion of audit scope and
           methodology and prior audit coverage related to the overall objective.


Review Of Internal Controls 1                    F




           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls.

           Scope of the Review of the Management Control Program. We performed
           tests of the Management Control Program by performing the procedures used to
           accomplish our objectives. The objective was to determine whether DoD
           Components report consistent and valid information to the Office of the Secretary
           of Defense, OMB, and Congress regarding management and protection of
           personal information related to the DoD Privacy and PIA programs. By
           performing the procedures to review those programs, we, in effect, tested the
           Management Control Program for the DoD Privacy and PIA programs.


1
    Our review of the internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. We continued using these directives because they were still in
    effect at the time of the audit announcement. DoD Directive 5010.38 was cancelled on April 3, 2006.
    DoD Instruction 5010.40 was reissued on January 4, 2006 as “Managers’ Internal Control (MIC)
    Program Procedures.”



                                                     2

Adequacy of Management Controls. We found weaknesses in the DoD
Components’ Management Control Programs for reporting PIA information in the
DoD Information Technology Portfolio Repository and implementing privacy
programs. For specific results of those weaknesses, see the Findings section of
the report. The recommendations, if implemented, will correct the weaknesses.
We will provide a copy of the final report to the senior official responsible for
management controls at the DoD Components.

Adequacy of Management’s Self-Evaluation. Our review revealed weaknesses
with the Management Control Program for the Army, Navy, Air Force, Defense
Threat Reduction Agency, and Washington Headquarters Service. With the
exception of the Air Force, all Components reviewed conducted self-assessments
of their Management Control Program. However, none conducted a review of
either the privacy program or the PIA program. The Air Force had not conducted
any self-assessments since FY 2004.




                                    3

                     A. DoD Privacy Program 

                     Operation of the current decentralized DoD Privacy Program is not
                     effective because DoD Components did not ensure timely and uniform
                     implementation of privacy program policy for reporting, collecting,
                     safeguarding, maintaining, using, and disseminating personal information.
                     Specifically, DoD Components did not consistently prepare system notices
                     for systems of records, mark documents with mandatory Privacy Act
                     statements, designate privacy officer responsibilities, or conduct privacy
                     training. These conditions occurred because neither the DoD Privacy
                     Office nor the DoD Components established oversight mechanisms and
                     provided resources necessary for effective program execution. As a result,
                     the personal information contained in DoD information systems could be
                     vulnerable to access by unauthorized personnel, and/or for unauthorized
                     purposes.


Privacy Act Program
           DoD Components did not consistently implement privacy program policy for
           reporting, collecting, safeguarding, maintaining, using, accessing, amending, and
           disseminating personal information. Specifically, DoD Components did not
           prepare system notices for systems of records, mark documents with mandatory
           privacy statements, designate privacy officer responsibilities, or conduct privacy
           training in a timely and uniform manner.

           System Notices. DoD Regulation 5400.11, “Privacy Program,” August 1983,
           requires that DoD Components prepare system notices for systems of records
           containing personal information retrieved by name or personal identifier, such as
           an address, social security number, or telephone number. A system of records is a
           group of records under the control of a DoD Component from which information
           is retrieved by an individual’s name or other personal identifier. DoD
           Directive 5400.11, “DoD Privacy Program,” November 16, 2004, and DoD
           Regulation 5400.11-R requires that DoD Components:

                     •	 submit system notices to the DoD Privacy Office for review and
                        submission to the Federal Register 2 for publication;
                                                                    F   F




                     •	 include a privacy statement on forms used to collect personal
                        information and retained in a system of records by personal identifier;
                        and




2
    Published by the Office of the Federal Register, National Archives and Records Administration, the
    Federal Register is the official daily publication for rules, proposed rules, and notices of Federal agencies
    and organizations, as well as executive orders and other presidential documents.



                                                         4

       •	 establish formal training programs for individuals involved in the
          design, development, operation, and maintenance of any system of
          records.

Implementation of these requirements was inconsistent across DoD Components.

         Army. Army Regulation 340-21, “The Army Privacy Program,” July 5,
1985, requires that privacy officials ensure system notices are properly described
in a published notice in the Federal Registry for new systems or systems
undergoing major changes. The July 1985 regulation had not been updated to
reflect the 2004 DoD Directive requirement that systems managers submit system
notices through their Component’s Privacy point of contact to the Defense
Privacy Office for publication in the Federal Registry. Of the three Army
locations visited, one location could not identify the system notices published in
the Federal Registry for their systems of records. The remaining two Army
locations provided a complete list of their systems of records and the
corresponding system notices.

        Navy. SECNAV Instruction 5211.5E, “Department of the Navy Privacy
Program,” December 28, 2005, requires that privacy officers and system
managers prepare system notices, submit notices to the Department of the Navy
Privacy Officer and DoD Privacy Office for review, and publish approved notices
in the Federal Register before collecting or maintaining privacy-protected
information. Of the three Navy locations visited, one was creating an inventory
of systems of records to determine the number of system notices to prepare and
publish for the identified systems. At two other Navy locations, the activity’s
privacy officer, in consultation with system owners, had prepared system notices
for systems of records maintained.

         Air Force. Air Force Instruction 33-332, “Privacy Act Program,”
January 29, 2004, requires that system managers prepare and submit system
notices through their Major Command Privacy Officer to the Air Force
CIO/Privacy Office. The Air Force CIO/Privacy Office then submits the system
notice to the Defense Privacy Office for publication in the Federal Register for
new and changed systems. The Instruction states that system notices are intended
to inform the public of the types of records the Air Force maintains. The
Instruction requires that the public have an opportunity to comment on the system
notice before system managers implement or make changes to the system. Of the
three Air Force locations visited, two locations could not identify system notices
for the systems of records under review. The third location provided a complete
list of their systems of records and the corresponding system notices, which had
been published in the Federal Registry following review by the DoD Privacy
Office.

        Defense Agencies. The Washington Headquarters Service, the TRICARE
Management Activity, and the Defense Threat Reduction Agency could identify
their system of records and the corresponding system notices. Additionally, the
three DoD agencies updated system notices in the Federal Registry as required.

Privacy Act Statements. DoD Regulation 5400.11-R, “Privacy Program,”
August 1983, requires that DoD Components include Privacy Act statements on


                                    5

forms that collect personal information and maintain them in an associated system
of records. DoD Regulation 5400.11-R also requires that DoD Components
revise or add Privacy Act statements to forms that non-DoD agencies issue
without Privacy Act statements before using the form to collect personal
information. At the military activities visited, administrative personnel
maintained numerous paper-based systems of records consisting of personnel
forms with personal information. The forms, however, did not always contain a
Privacy Act statement as required or it was not prominently displayed.
Additionally for forms completed by supervisors or administrative personnel
regarding other individuals, a required Privacy Act statement would enable these
supervisors or administrative personnel to make informed decisions regarding the
necessity of continued inclusion of selected personal information on these forms.
For example, we found Department of the Army Form 1256, “Incentive Award
Nomination and Approval,” without any evidence of a Privacy Act statement
being provided on the form or as an attachment, despite inclusion of names and
other personal identifiers. The three DoD agencies reviewed, however, did
implement policies or procedures to ensure the proper use of Privacy Act
statements.

We also found that the military activities used non-Component-generated forms
that did not include a Privacy Act statement before collecting the personally
protected information. For example, the Army, Navy and Air Force used
non-DoD Standard Form 50-B, “Notification of Personnel Action;” OMB Form
No. 3206-0160, “Health Benefits Registration;” and Standard Form 2817, “Life
Insurance Election Federal Employees Group Life Insurance Program.” See
Appendix B for a list of the forms containing personal information, which we
found filed in a system of records, retrieved by personal identifier that did not
contain a required privacy statement.

Privacy Officer Responsibilities. The Army, Navy, and Air Force privacy
guidance requires that activity privacy officers administer privacy programs and
implement Privacy Act requirements. We found that privacy officers at military
activities did not or could not always address Privacy Act requirements. In
addition, not all privacy officers had received formal management-level privacy
training. For example, the Staff Judge Advocate at one Navy location was
designated as the Privacy Act Officer in July 2003 as an additional duty, but did
not begin complying with Privacy Act requirements for systems of records and
system notices, privacy training, and Privacy Act Program assessments until
April 2006.

At one Air Force Command, the Acting Privacy Officer appointed in April 2006
was also designated as the Freedom of Information Act (FOIA) officer and was
expected to perform both duties while fulfilling other full-time work
requirements. This Acting Privacy Officer could not verify whether system
owners had prepared systems notices for the Command’s systems of records we
reviewed. At another Air Force Command, the Privacy Officer position was
filled as an acting position for 2 years and the incumbent also fulfilled the
responsibilities of another regular full-time position. The Acting Privacy Officer
could not match the system notices to the IT systems of records we reviewed. In
June 2006, following completion of on-site audit fieldwork, the Command hired a
dedicated privacy officer.


                                     6

At one Army location, the Privacy Officer who was appointed in October 2004
was responsible for the FOIA program in addition to other full-time duties. The
Privacy Officer did not receive management-level Privacy Act training. At
another Army location, the appointment of a Command Privacy Officer was
pending, although we identified an official who was assigned privacy
responsibilities for a division within the Command. At the third Army location,
the Privacy Officer, appointed in July 2005, had not received any formal
management-level privacy training.

The three DoD agencies reviewed designated privacy officers to administer their
privacy programs. The Defense Threat Reduction Agency and TRICARE
Management Activity’s Privacy Officers oversee dedicated staff members who
administer privacy requirements. The Washington Headquarters Service Privacy
Officer is responsible for all privacy requirements.

Privacy Training. Of 12 locations visited, 10 had not implemented a job-
specific privacy training program for employees and contractors directly involved
with protecting personally identifiable information or IT systems containing such
information. The Privacy Act requires that agencies maintaining systems of
records establish rules of conduct for individuals involved in the design,
development, operation, or maintenance of systems of records. DoD Regulation
5400.11-R establishes requirements for orientation, specialized, and management
training for individuals involved with systems of records. Although the
Regulation does not require all employees to be trained, such training would
provide individuals with a basic understanding of DoD privacy requirements as
they apply to the individual’s job performance. The training would also provide
managers of operational programs and activities with information on privacy
implications.

Based on the information we received during interviews with privacy officials
from the Military Departments and DoD agencies, we identified a lack of
awareness of Privacy Act requirements. Additionally, the level of training varied
by location. Of the 12 locations reviewed, privacy officials at 3 locations did not
conduct training on privacy requirements and although privacy training was
conducted at another 8 locations, the Privacy Officer did not document the
requirements of the program or identify the types of training required for all
levels of personnel including specialized and management training. The
remaining location implemented and documented a privacy training program that
included training for all levels of personnel.

         Military Departments. The Departments of the Army and the Navy did
not require privacy training for all personnel. Additionally, Army
Regulation 340-21 is void of any requirements for privacy training. In
December 2005, for the first time, the Air Force required Air Force personnel to
complete privacy training using an on-line portal. The Air Force, however, in
April 2006, rescinded the training requirement because the on-line portal could
not accommodate the volume of users taking the training. Further, some Air
Force personnel did not have access to a computer to take the training and,
finally, the on-line curricula did not cover all elements that the Privacy Act
requires.



                                     7

            DoD Agencies. While the three DoD agencies that we reviewed
    conducted and documented some form of privacy training, the frequency and
    sophistication of the training varied. The Defense Threat Reduction Agency
    implemented mandatory annual privacy awareness training in August 2003.
    Privacy awareness training is also conducted at the Washington Headquarters
    Service, and in August 2006, the Privacy Officer obtained approval to mandate
    annual computer-based privacy training. Implementation of the training is
    expected by August 2007. However, the Defense Threat Reduction Agency and
    Washington Headquarters Service did not implement specialized and
    management privacy training requirements for all employees requiring additional
    privacy training. At the TRICARE Management Activity, privacy training is
    required annually and specialized employees and managers also receive
    additional training.

            OMB Memorandum M-06-15, “Safeguarding Personal Identifiable
    Information,” May 22, 2006, re-emphasizes the responsibilities for Federal
    agencies under law and policy to safeguard personally identifiable information
    and train employees on their responsibilities regarding personal information.
    OMB Memorandum M-06-15 also requires that Federal agencies remind
    employees of specific responsibilities for safeguarding personally identifiable
    information within 30 days as well as the rules for acquiring and using protected
    information as well as the penalties for violating Privacy Act rules.

    DoD Components should treat privacy training as a priority and develop and
    distribute appropriate privacy training material to all DoD personnel. The
    Components should identify all employees and contactors involved with
    protecting personally identifiable information, require that they complete annual
    privacy awareness training, and document completion of that training. Lastly,
    Components should require that personnel in sensitive, specialized, and
    management positions receive privacy training appropriate for their positions of
    trust. The Component should clearly specify the requirements for privacy
    training at each level and document the completion of all training for each
    individual trainee level.


Program Oversight and Resourcing
    The Military Departments’ privacy officers did not actively oversee the
    Departments’ privacy programs consistent with DoD Directive 5400.11
    requirements, and many privacy officers performed dual roles, with privacy
    responsibilities not given the higher priority.

    The Army’s Privacy Officer is responsible for ensuring that the Department of the
    Army fulfills all Privacy Act requirements in addition to administering the Army
    FOIA program and the Quality of Information Program. The Army privacy staff
    consisted of one privacy specialist and one office chief with management
    responsibilities for FOIA, privacy and the Quality of Information Program. The
    privacy specialist position is currently vacant, and there is no plan to fill the
    position.



                                         8

    Similarly, the Navy’s Privacy Officer is responsible for developing and
    implementing policy and provisions of the Privacy Act, developing a Navy-wide
    privacy training program, and conducting privacy reviews. Additionally, the
    Privacy Officer is the training oversight manager who is responsible for managing
    notices for the Navy and joint Navy and Marine Corps Privacy Act systems,
    chairs the Navy’s Privacy Act Oversight Working Group, and coordinates all
    Navy PIAs before submitting them to the Navy CIO with a staff of four
    employees.

    The Air Force Privacy Officer is responsible for providing guidance and
    assistance to the Air Force Major Commands and field operating activities to
    verify that information requirements developed to collect or maintain personal
    data conform to privacy standards. In addition, the Privacy Officer with one other
    person is responsible for the Air Force FOIA and PIA programs as well as the
    Federal Register liaison.

    The Defense Threat Reduction Agency, TRICARE Management Activity, and
    Washington Headquarters Service each designated a privacy act officer and
    issued privacy program guidance. The privacy officers, however, have additional
    duties, such as FOIA and PIA, and do not always have the resources necessary to
    fulfill their privacy duties.

     Insufficient oversight compromises the safeguards for personal information
    contained in DoD information systems and exposes personal information to
    access by unauthorized personnel for unauthorized purposes. Requiring DoD
    Components and activities to complete bi-annual certifications that Privacy Act
    program requirements were implemented and are being followed by Components
    may assist privacy officers in identifying resources needed for compliance in
    managing more robust privacy programs.


Conclusion
    Federal agencies have a special duty to protect personally identifiable
    information. The increased focus on privacy following information losses at
    numerous Federal agencies has resulted in OMB placing additional requirements
    on already thinly resourced DoD privacy program staff, and the current
    decentralized program cannot provide an effective response. DoD privacy
    officials do not consistently implement safeguards and policies for protecting
    personal privacy information as required by the Privacy Act, and Component
    privacy officers do not oversee privacy programs within their Components. The
    personal information contained in DoD systems could be vulnerable to access by
    unauthorized personnel and individuals identified in systems of records
    vulnerable to identify theft and fraudulent activities. Effective oversight and
    administration of the DoD Privacy Act program is contingent on the allocation of
    sufficient resources and establishment of internal control mechanisms to verify
    accomplishments of the program’s intent.




                                        9

Management Comments on the Finding and Audit Response
    DoD Senior Privacy Official Comments on Defense Privacy Office Oversight.
    The report does not acknowledge that the Defense Privacy Office has a number of
    mechanisms in place, similar to those used by the Office of Management and
    Budget in its oversight role for Federal Privacy, which permits the Defense
    Privacy Office to oversee the Component Privacy Programs. The Defense
    Privacy Office has a dedicated technical channel with Component Privacy
    officials that provides the Defense Privacy Office with information on
    Components and permits Components to surface problems when encountered.
    The Defense Privacy Office oversees Components by reviewing and approving
    Privacy Act system of records notices, which shows how well Components are
    complying with Privacy Act requirements. The Defense Privacy Office prepares
    the Department’s FISMA Privacy Report based, in part, on input provided by
    DoD Components. In effect, Components are tasked to assess their programs.
    The resulting input provides the Defense Privacy Office with an opportunity to
    assess the current health of the Component’s Privacy Program. The DoD
    Inspector General and Component Inspectors General are a way to oversee
    Components, a means that until now has not been used frequently.

    Audit Response. We reviewed management comments and determined that
    report revisions were not required. Current Defense Privacy Office and
    Component oversight mechanisms failed to ensure that DoD consistently
    implemented Privacy Program policy for reporting, collecting, using,
    safeguarding, and maintaining personal information. Component Privacy offices
    could not always document that system record notices had been prepared for
    required systems; did not always consult with subordinate offices when preparing
    Component FISMA responses forwarded to Defense Privacy Office; and did not
    always conduct proactive oversight of subordinate Privacy offices. Periodic
    reviews of the DoD Privacy Program by the DoD Inspector General and
    Component Inspectors General are not a substitute for sound management
    controls and oversight of the Privacy Program.

    DoD Senior Privacy Official Comments on Privacy Act Statements. The
    report identifies a number of forms that did not include a Privacy Act statement.
    However, Standard Form 2817 and Standard Form 1199A do contain a Privacy
    Act statement. For Form 2817, the Privacy Act statement is described at the top
    of page 1. For Form 1199A, the Privacy Act statement is located on the back of
    the Form under the heading “Please Read This Carefully.” Finally, Standard
    Form-50-B does not require a Privacy Act statement as information is not being
    collected directly from the individual.

    Audit Response. We reviewed management comments and determined that
    report revisions were not required. Our review of Component system of records
    containing completed Standard Form 2817 found the statement at the top of the
    page; “See Privacy Act statement on the back of part 3.” However, we found no
    back page on the forms we reviewed. Likewise, when reviewing completed
    1199A forms we did not find a back page. Requiring Privacy Act statements on
    forms like Standard Form-50-B when information is provide by a trained third



                                        10 

    party would enable these trained third parties to make informed decisions on
    whether to continue including selected personal information on these forms.

    Department of the Navy Comments on the Finding. Although not required to
    comment, the Department of the Navy CIO provided the following comments on
    finding A. The Department of the Navy CIO concurs that SECNAV
    Instruction 5211.5E should be updated to reflect changes in managing the Privacy
    Program, policies, and practices. The Instruction is under review and will
    incorporate recommendations from this audit report, as appropriate. The
    Department of the Navy Privacy Act and FOIA offices acted to reduce the threat
    to personally identifiable information and increase privacy awareness by updating
    the Privacy web site, identifying systems of records on the web site, listing all
    changes to systems on the Privacy web site, developing and posting Privacy
    training materials on the Privacy web site, revising SECNAV
    Instruction 5211.5E, forming Privacy working groups to address best practices
    and policy, designating one full-time equivalent for IA to focus on PIAs and
    coordinate activities with the Privacy Act and FOIA offices, and reviewing one-
    third of the Department of the Navy’s system inventory to ensure proper
    reporting. In addition, the Department of the Navy Deputy CIO (Marine Corps) is
    drafting policy for a PIA process, for personnel management on personally
    identifiable information, and for reporting of loss or compromise of personally
    identifiable information.

    Audit Response. We reviewed the Department of the Navy comments and
    acknowledge the progress made to improve operations within the Navy Privacy
    Program.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. We revised the recommendation to clarify our
    position that the responsibility for addressing Finding A recommendations
    resides with the Director of Administration and Management, Office of the
    Secretary of Defense.

    We recommend that the Director of Administration and Management, Office
    of the Secretary of Defense:

          a. Modify DoD Directive 5400.11, “DoD Privacy Program,”
    November 16, 2004, to require the Secretaries of the Military Departments
    and DoD Component heads to:

                  (1) Provide bi-annual certifications that the requirements for
    the Privacy Act training program, system of records, system notices, and
    Privacy Act statements have been implemented and are being followed, and
    forward the certificates to the Defense Privacy Office for review and
    retention.




                                       11 

Management Comments. The DoD Senior Privacy Official generally concurs
with the findings but not with the recommendations. The Defense Senior Privacy
Official stated that the Components are now under an affirmative obligation to
ensure that the Program mandates are met. The Defense Senior Privacy Official
also stated that biannual certification requirements would not remedy the
problems identified in the report. The Component FISMA Privacy reporting is a
more effective tool for overseeing and reviewing Component compliance with
program requirements.

Audit Response. The DoD Senior Privacy Official’s comments are not
responsive. The FISMA Privacy reporting is primarily agency level inquiries.
Component heads’ FISMA reporting does not adequately reflect the condition of
DoD Privacy operations because Component FISMA reports do not always
include information from field Privacy offices. Privacy officers at all levels
should report and certify information on the operation of their Privacy programs.
The information should be submitted to the Component head who reviews and
validates that information before certifying the Component submission to the
Defense Senior Privacy Official. We request that the Defense Senior Privacy
Official reconsider his position on the recommendation and provide additional
comments on the final report.

              (2) Require that Privacy Act statements are included on any
DoD and non-DoD form used to collect personally identifiable information
regardless of who provides the information.

Management Comments. The DoD Senior Privacy Official generally concurs
with the findings but not with the recommendations. The Defense Privacy Office
stated that the report points out that DoD Regulation 5400.11 requires forms,
whether DoD or not, to contain a Privacy Act statement if the information is being
collected directly from the individual and filed in a system of records. Neither the
Privacy Act nor the DoD guidance requires that a Privacy Act statement be
provided by a third party who is furnishing information about an individual.

Audit Response. The DoD Senior Privacy Official’s comments are not
responsive. We agree that neither the Privacy Act nor the DoD guidance require
a Privacy Act statement to be provided by a third party who is furnishing
information about an individual. However, forms completed by supervisors,
administrative personnel, or other third parties regarding other individuals
personal information should require a Privacy Act Statement to properly and
promptly alert those responsible individuals about the sensitivity of and the need
to safeguard the personal data. Use of the Privacy Act Statement will enable
those individuals to make informed decisions and inquiries regarding the
necessity of continued inclusion of selected personal information on such forms.
Because personally identifiable information is provided by an external source or
third party does not negate the need to protect that data from unauthorized or
improper access. We request that the DoD Senior Privacy Official reconsider his
position on the recommendation and provide additional comments on the final
report.




                                    12 

              (3) Require that Privacy officers receive management Privacy
training within 90 days of appointment and include the Privacy training
requirement in performance standards established for Privacy officials.

Management Comments. The DoD Senior Privacy Official generally concurs
with the findings but not with the recommendations. The Defense Privacy Office
stated that DoD Regulation 5400.11 will be changed to incorporate training
requirements. However, the proposal of incorporating a Privacy training
requirement into the performance standards of Privacy officials will be evaluated
as part of the DoD Privacy Program review.

Audit Response. The DoD Senior Privacy Official’s comments are partially
responsive. We disagree that further evaluation is necessary before incorporating
Privacy training requirements into the performance standards of Privacy officials.
We identified a Defense Agency that has incorporated Privacy training
requirements into every employee’s annual performance standards. This
requirement clearly proved to be an effective way to ensure completion of Privacy
training and promote increased Privacy awareness among the agency staff. We
request that the Defense Senior Privacy Official reconsider his position on the
recommendation and provide additional comments on the final report.

              (4) Require that individuals involved with implementing
privacy requirements and/or handling personal information receive
appropriate specialized and management training as identified in DoD
Regulation 5400.11-R, “Privacy Program,” August 1983.

Management Comments. The DoD Senior Privacy Official generally concurs
with the findings but not with the recommendations. The Defense Privacy Office
stated that the current DoD Regulation on Privacy includes guidance on such
training. The revised Regulation, which is undergoing a final review, has been
expanded to provide additional guidance as well.

Audit Response. The DoD Senior Privacy Official’s comments are partially
responsive. The DoD Regulation 5400.11-R, “Privacy Program,” August 1983,
outlines the basis for non-mandatory specialized and management training.
However, establishing mandatory specialized and management privacy training
requirements for DoD Components is crucial to ensure that individuals involved
with implementing Privacy requirements and/or handling personal information
are fully aware of the importance and nature of their respective positions. We
request that the Defense Senior Privacy Official reconsider his position on the
recommendation and provide additional comments on the final report.

             (5) Require annual Privacy Act awareness training for all DoD
employees that includes a certification of completion.

Management Comments. The DoD Senior Privacy Official generally concurs
with the findings but not with the recommendations. The Defense Privacy Office
stated that the new DoD Regulation on Privacy will state that Privacy awareness
training will be offered and conducted. How often the training is conducted will
be at the discretion of the Components.



                                    13 

Audit Response. The DoD Senior Privacy Official’s comments are not
responsive. We understand that it is the duty of the Component to train its
individuals on Privacy awareness. However, during our review, we discovered a
lack of knowledge of Privacy Act requirements throughout DoD Component
Privacy offices. The Privacy training varied in sophistication and frequency and
was nonexistent at some locations. For example, one DoD agency established an
effective Privacy program designed to ensure that all employees understood their
rights to Privacy protection and responsibilities. However, at another DoD
Component office we found no Privacy training in place to ensure these same
Privacy rights and responsibilities. Privacy training should be given the same
level of attentiveness as DoD annual ethics and security training requirements.
We request that the Defense Senior Privacy Official reconsider his position on the
recommendation and provide additional comments on the final report.

       b. Assess the DoD privacy program for staffing levels and resources
required to enable privacy officials to effectively fulfill their privacy duties
and recommend resource reallocations to the Secretary of Defense,
Secretaries of the Military Departments, and DoD Component Heads as
necessary to ensure a viable privacy program.

Management Comments. The DoD Senior Privacy Official generally concurs
with the Findings but not with the recommendations. The DoD Senior Privacy
Official agrees that Component staffing levels and resources should be assessed
with a view of determining what can be done to enhance Program effectiveness.
The DoD Senior Privacy Official stated that the assessment will be conducted as
part of the DoD Privacy Program review.

Audit Response. Management comments are responsive. The DoD Senior
Privacy Official agrees on the necessity to assess the DoD Privacy program for
staffing levels and resources required and provided a review target completion
date of the fourth quarter, FY 2007. No further comments are required.

      c. Modify DoD Directive 5400.11, “DoD Privacy Program,”
November 16, 2004, to require that Component Privacy officers, in
coordination with the Component Chief Information Officers, support
preparation of the certifications required in Recommendation a.

Management Comments. The DoD Senior Privacy Official generally concurs
with the Findings but not with the recommendations. The DoD Senior Privacy
Official stated that CIOs do not have a direct role in the Privacy Program,
although they do have a critical role to play regarding Privacy. In effect, the
Component Privacy Official relies on the Component CIO to develop the
appropriate technical safeguards that will protect personally identifiable
information in IT systems, thereby permitting the Component to comply with the
Privacy Act, and implementing DoD and the Component authority.

Audit Response. Management comments are not responsive. The coordination
between the Component Privacy officials and the CIOs is essential for the success
of the Privacy Program. Establishing procedures to coordinate preparing,
reviewing, and approving system record notices and establishing technical
safeguards will advance awareness and compliance with Privacy requirements


                                    14 

throughout the DoD. We request that the DoD Senior Privacy Official reconsider
his position on the recommendation and provide additional comments on the final
report.

              (1) Develop an authoritative inventory of Component systems
of records containing personally identifiable information.

Management Comments. The DoD Senior Privacy Official generally concurs
with the Findings but not with the recommendations. The DoD Senior Privacy
Official stated that the DoD Regulation 5400.11 requires the Defense Privacy
Office to maintain an authoritative inventory of systems of records notices. The
DoD Senior Privacy Official stated that the inventory is posted in the Defense
Privacy Office website.

Audit Response. Management comments are not responsive. System owners
could not always identify or substantiate that systems of records notices had been
prepared for information technology systems and paper-based systems.
Additionally, while systems owners were aware of systems of records that
covered multiple systems, they could not always identify single systems covered
by a blanket system of records notice. Component Privacy officers, in
coordination with the Component CIOs, should develop and maintain systems of
records inventory for all Component-owned systems. We request that the DoD
Senior Privacy Official reconsider his position on the recommendation and
provide additional comments on the final report.

             (2) Prepare system notices for the inventory of systems of
records maintained.

Management Comments. The DoD Senior Privacy Official generally concurs
with the Findings but not with the recommendations. The DoD Senior Privacy
Official stated that CIOs do not have a direct role in the Privacy Program,
although CIOs have a critical role to play regarding Privacy. The DoD Senior
Privacy Official stated that the DoD 5400.11 requires system managers to prepare
a system notice for any new, amended, or altered system and to forward that
notice to the Component Privacy Official for review.

Audit Response. Management comments are not responsive. The
recommendation discusses the need for the Component Privacy officers and CIOs
to coordinate a review of system notices that the system owner prepared. DoD
Component Privacy Officers could not always identify whether or not systems
were covered by a system of records notice. Privacy officer and CIO
coordination will benefit the system notice process by fostering increased
communication and awareness. We request that the DoD Senior Privacy Official
reconsider his position on the recommendation and provide additional comments
on the final report.

              (3) Oversee subordinate privacy programs by conducting
privacy reviews and verifying that privacy training is conducted at all
required levels.




                                    15 

Management Comments. The DoD Senior Privacy Official generally concurs
with the Findings but not with the recommendations. The DoD Senior Privacy
Official stated that Component Privacy Officials are currently required to provide
input for the FISMA Privacy Report, to review their Privacy Programs, to include
assessing whether their training programs are ensuring that personnel are
generally familiar with information Privacy laws, regulations, and policies and
whether appropriate job-related training is being offered.

Audit Response. Management comments are not responsive. Component
Privacy offices did not perform proactive oversight of subordinate Privacy
programs; instead, efforts were focused on responding to subordinate office
inquiries. The current DoD Directive 5400.11 does not direct Component Privacy
offices to oversee subordinate Privacy programs. FISMA Privacy reporting is not
an effective oversight tool for reasons stated in Recommendation a.(1), Audit
Response. We request that the DoD Senior Privacy Official reconsider his
position on the recommendation and provide additional comments on the final
report.




                                    16 

           B. Privacy Impact Assessments 

           DoD did not fully comply with the PIA requirements of the E-Government
           Act of 2002, and a significant portion of the DoD CIO community did not
           establish responsibilities for conducting, reviewing, approving, and
           reporting PIAs or posting PIAs to public Web sites. DoD did not comply
           with requirements of the Act because the ASD[NII]/DoD CIO and the
           Component CIOs did not provide timely guidance for implementing a
           DoD PIA program following enactment of legislation in December 2002.
           Also, the DoD CIO community did not follow safeguards or establish
           effective management oversight mechanisms to protect personally
           identifiable information. As a result, DoD information systems may not
           conform to DoD and Federal policies regarding privacy information and
           their operation may not be designed to prevent the compromise and
           misuse of the public’s personally identifiable information.


E-Government Act of 2002
    The E-Government Act establishes protections for the privacy of personally
    identifiable information as agencies implement an electronic Government that
    focuses on citizens. Personally identifiable information is information that
    directly identifies an individual, such as by name, address, social security number,
    telephone number, gender, birth date, or e-mail address. To accomplish this, the
    Act requires that Federal agencies conduct PIAs. A PIA addresses privacy factors
    for new or significantly altered IT systems or projects that collect, maintain, or
    disseminate personal information from or about members of the public. Once
    complete, the Act requires that Federal agencies submit PIAs to OMB.

    The E-Government Act also requires that OMB issue guidance to Federal
    agencies specifying the required content of a PIA. In September 2003, OMB
    issued OMB Memorandum 03-22 that implemented the privacy provisions of the
    E-Government Act. The DoD Deputy CIO issued PIA guidance implementing
    OMB Memorandum 03-22 for DoD Components 2 years later on October 28,
    2005.

    DoD did not fully comply with the PIA requirements of the E-Government Act.
    Although the DoD PIA Guidance included additional responsibilities for the
    review and coordination of a PIA at the Component level, the guidance partially
    contradicted the requirements of the E-Government Act. Specifically, the DoD
    PIA guidance requires that Component CIOs ensure that PIAs are properly
    developed and reviewed, approved and publicly accessible, and forwarded to
    OMB for IT systems and projects. The Act, however, requires that the Executive
    Agency CIO (the ASD(NII) for DoD) review PIAs before they are made publicly
    accessible. The DoD CIO delegation to the Component CIOs is inconsistent with
    the intent of the Act in that it does not provide for a Departmental-level PIA
    program. Further, the DoD CIO guidance does not specify the responsibilities of
    the DoD CIO for reporting PIA information to the DoD Senior Privacy Official
    for inclusion in the annual reporting to OMB. The diagram below depicts the



                                        17 

DoD decentralized process for conducting, reviewing, coordinating, and
approving a PIA. A discussion of the process follows.



                                     DoD PIA Process


                                         E-Government Act of 2002
                                            (requires Executive
                                         Agencies to prepare PIAs)

                       Office of Management and Budget (OMB)
               (OMB requires PIA information for the FISMA Privacy report)

  Approved
   PIA*


                                                                             Defense
                   ASD(NII)/CIO                                          Privacy Officer
                                           Advise & Assist
                                           on privacy matters
                                           impacting PIAs

                      Approved 

                        PIA 


                                                                                          Reviewed
                                      Component CIO                                         PIA
                                   (Approves & Posts PIAs)


              Component Privacy                    Component Information
             Act Officer (reviews &              Assurance Officer (reviews &
               coordinates PIA)                        coordinates PIA)


                                   PIA                PIA

                                      System Owner
                                      (prepares PIA)

* The E-Government Act requires that ASD(NII)/DoD CIO review PIAs and make them publicly
available if practicable, and provide the Director of OMB a copy of the PIA for each system for
which funding is requested. The DoD CIO, however, delegated that authority and responsibility
to Component CIOs.



                                          18 

Privacy Impact Assessment Requirements 

    Components’ CIOs did not establish responsibilities for conducting, reviewing,
    approving, and reporting PIAs or posting PIAs to public Web sites. The DoD
    PIA Guidance and OMB Memorandum 03-22 require that agencies conduct
    reviews about the handling of an individuals’ information within an agency when
    agencies use IT for collecting new information, or when agencies develop or buy
    new IT systems that will handle collections of personally identifiable information.
    The DoD PIA Guidance and OMB Memorandum 03-22 also require that agencies
    describe how they handle information individuals provide electronically to the
    Government, so the public has assurance that the Government is protecting
    personal information.

    PIA Responsibilities. DoD PIA Guidance assigns responsibilities and
    establishes a process for Component CIOs, privacy officers, and Information
    Assurance (IA) officials to use when completing, reviewing, approving, and
    posting PIAs. The Component privacy officer is responsible for reviewing and
    coordinating PIAs to identify and evaluate privacy implications. The IA official
    reviews and coordinates PIAs to assess compliance with DoD IA policies. As the
    PIA reviewing official, the Component CIO verifies that system owners complete
    PIAs and approves and submits the assessment to the DoD CIO and OMB, and
    posts the PIA on the Component’s public Web site.

            Army. In January 2006, the Department of the Army CIO (Army CIO)
    designated a department-level PIA official. The Army PIA official is responsible
    for adhering to the requirements of the DoD PIA program. Army Regulation
    340-21, “The Army Privacy Program,” however, has not been updated in more
    than 20 years, nor has supplemental Army guidance been provided for preparing
    and reviewing PIAs. A PIA program did not exist at two of the three Army
    locations visited. One system owner stated that he was not aware of the DoD PIA
    Guidance. At another location, the Privacy Officer, in addition to reviewing a
    PIA for privacy implications, also approved the PIA. None of the locations
    assigned responsibility to an IA official to review PIAs for compliance with IA
    policies.

            In the absence of DoD guidance, the Army Corps of Engineers prepared a
    PIA using the General Services Administration PIA template as a guide. System
    owners completed the PIA before the DoD CIO issued the DoD PIA template in
    October 2005. The approved Corps PIA was sent directly to OMB, but not to
    either the Army or DoD CIO. Future Corps PIA development and submissions
    should be consistent with OMB and DoD guidance.

            Navy. The Department of the Navy CIO (Navy CIO) designated an
    official responsible for the Navy’s PIA program and stipulated that the Navy
    official must meet the requirements of the DoD PIA program. However,
    SECNAV Instruction 5211.5E did not include some of the PIA responsibilities in
    the DoD PIA Guidance. Although SECNAV Instruction 5211.5E requires that
    the Navy CIO provide guidance to Navy officials on PIAs and oversee policy and
    procedures that will ensure system owners conduct PIAs, the Instruction does not
    require that an IA official review PIAs for compliance with IA policies. The


                                        19 

Navy PIA official did not review, approve, or submit Navy PIAs to the DoD CIO
or OMB because the Navy Components did not provide any PIAs for review.

        We reviewed the implementation of the PIA program at three Navy
locations and found that none assigned PIA responsibilities as the DoD PIA
Guidance requires. System owners at one location stated that they did not assign
PIA responsibilities because they were not aware that requirements existed.
System owners at another location stated that they did not prepare any PIAs or
assign responsibilities for PIA requirements because they determined that their
systems do not require PIAs.

        System owners at the third Navy location stated that they used the Navy’s
PIA template to prepare PIAs. System owners reviewed and submitted the PIA to
the Navy Privacy Officer on December 15, 2005, for review. However, the DoD
and Navy CIOs did not receive the PIA. The system owner did not track the
status of the PIA after submitting the assessment to the Navy Privacy Officer. In
addition to not tracking the status, the system owners did not require that the IA
official review the PIA before submitting the assessment to the Navy Privacy
Officer to determine compliance with IA policies. Further, SECNAV
Instruction 5211.5E requires that the Navy CIO review and approve PIAs for the
Navy, not the Navy Privacy Officer.

        Air Force. Air Force Instruction 33-332 requires that system owners
conduct PIAs. The Instruction requires that the Privacy Act office review the PIA
and provide the assessment for final approval to both the major command and
headquarters functional CIO. Once reviewed at the subordinate level, the
Instruction requires the submission of the PIA to the Department of the Air Force
CIO. In the Air Force, the Privacy Act officer and PIA officer are one and the
same, and that official stated that Air Force Components did not submit PIAs to
the Air Force CIO, the DoD CIO, or OMB because Air Force Components were
not preparing PIAs. According to the Air Force Privacy/PIA Officer, system
owners did not have any approved PIAs to submit for review as of August 2006.

        We reviewed the PIA programs at three Air Force sites. None of those
three commands assigned PIA responsibilities that the DoD PIA Guidance
requires. System owners at two commands did not assign responsibilities or
prepare a PIA because they were not aware of the requirements. As a result, the
commands did not designate a PIA official or conduct systems evaluations that
could determine whether their information systems require PIAs. A system
owner at the third command is preparing the command’s first PIA, which includes
the system owner completing the PIA, the Records Management/Privacy Officer
reviewing the PIA, and the functional CIO approving the PIA. The PIA process
and Air Force Instruction 33-332 do not require that the IA official review the
PIA for compliance with DoD IA policies. Air Force officials stated that they are
planning to update Air Force Instruction 33-332 by December 2006. The updated
Instruction will include the requirements of the DoD PIA program. The Air Force
Privacy/PIA Officer also stated that since the audit teams initial visit, the
Air Force has begun assigning PIA responsibilities Air Force-wide.

        DoD Agencies. We reviewed the PIA programs at three DoD agencies.
Of the three agencies, the Defense Threat Reduction Agency did not assign PIA


                                    20 

    responsibilities in accordance with DoD PIA Guidance. That agency did not
    establish any PIA roles and responsibilities for individuals who must be involved
    in the PIA process. In the two remaining agencies, the TRICARE Management
    Activity and the Washington Headquarters Service processes were in place to
    determine whether their information systems require a PIA. Although that
    process was in place, the Washington Headquarter Service did not complete any
    PIAs or formally document the use of their process. The IA official, the Privacy
    Office, and CIO at both the Washington Headquarters Service and the TRICARE
    Management Activity were in place to review and coordinate PIAs during the
    approval process, which met the requirements of the guidance.

    Component CIOs must ensure adherence to DoD PIA Guidance and assign PIA
    responsibilities within their agencies. Component CIOs should require that
    system owners submit system evaluations for the proper review. The Component
    CIOs should review system owner evaluations that include any determination that
    an assessment was not required. Component CIOs should ensure that PIA policy
    complies with the DoD PIA Guidance.

    Posting PIAs to Public Web Sites. The guidance requires that each DoD
    Component maintain a repository of PIAs and post PIAs to a central location on
    the Component’s public Web site. The PIA should remain posted until the
    Component terminates the system or no longer maintains information in
    identifiable form in the system. The DoD PIA Guidance also directs that the
    ASD(NII) maintain a DoD Web site that enables public access to approved PIAs
    or summary PIAs.

    Although the ASD (NII)/DoD CIO Web site contains a PIA link, the link only
    provides access to a PIA request box (and no list of PIAs). The CIOs for the
    Army, Navy, and Air Force did not post approved PIAs to their Web sites because
    the CIOs did not receive any completed PIAs. In addition, both the Defense
    Threat Reduction Agency and the Washington Headquarters Service did not post
    PIAs to their Web sites because those agencies did not complete one. The
    TRICARE Management Agency posted a list of completed PIAs on its Web site.
    The Web site contained a link for viewers to request a copy of the PIAs. Only
    two Components, the Air Force and the TRICARE Management Activity,
    included the E-Government Act requirement to post PIAs to the agency’s
    Web site in their guidance.

    A DoD Component CIO must make PIAs available to the public and provide
    necessary guidance for doing so to their Component. The ASD(NII)/DoD CIO
    should have either posted any approved PIAs to their Web site or provided links
    to Component web sites for accessing them. Additionally, the
    ASD(NII)/DoD CIO should clarify the circumstances in which PIAs are to be
    made available to the public.


Management Oversight
    DoD Components did not fully comply with requirements of the E-Government
    Act because ASD(NII)/DoD CIO and the Component CIOs did not provide timely


                                        21 

implementing guidance for a DoD PIA program following enactment of
legislation in December 2002. Also, they did not implement safeguards or
establish effective management oversight mechanisms to protect personally
identifiable information by:

       •	 thoroughly disseminating requirements for PIAs to DoD system
          owners;

       •	 updating guidance to assign necessary responsibilities to officials
          reviewing, coordinating, approving, reporting, and posting PIA
          information;

       •	 requiring that PIA officials complete training required for evaluating,
          completing, or submitting a PIA; and

       •	 establishing effective internal control mechanisms to ensure
          compliance with PIA requirements.

CIO Oversight. The DoD PIA Guidance requires that the ASD(NII)/ DoD CIO
serve as the DoD principal point of contact for any IT matters relating to PIAs.
The guidance requires that the CIO provide Department-wide guidance on how to
conduct, review, and publish a PIA. Military Departments and heads of DoD
Components must establish policies and procedures that implement the guidance.
DoD Components must also educate personnel on their responsibilities for
protecting personally identifiable information. The CIO did not, however, issue
the guidance until October 2005; two and one half years after the E-Government
Act went into effect in April 2003. In addition, the DoD CIO and Component
CIOs did not adequately oversee system owners who are required to conduct
PIAs. As a result, systems owners at the Army, Navy, and Air Force stated that
they were not aware of the DoD PIA Guidance.

Active oversight of the PIA process is important to guarantee that Component
CIOs are implementing PIA programs and that system owners are conducting
PIAs on required systems. Component CIOs should be overseeing the PIA
program to determine that system owners secure, protect, and preserve the
confidentiality of the information in identifiable form.

DoD PIA Guidance. The DoD PIA Guidance requires that DoD Components
complete a PIA when developing or procuring an IT system or project that
collects, maintains, or disseminates information in identifiable form on members
of the public. The Guidance, however, does not require that DoD Components
conduct a PIA on DoD information systems that collect and maintain personally
identifiable information on DoD personnel. Although the PIA requirements of
the E-Government Act permit exclusion of DoD personnel, privacy implications
should be considered for any information system that collects personally
identifiable information. OMB Memorandum 06-20, “FY 2006 Reporting
Instructions for the Federal Information Security Management Act and Agency
Privacy Management,” July 17, 2006, states that OMB encourages agencies to
scrutinize their internal business processes for handling identifiable information
about employees to the same extent they scrutinize processes and information
handling procedures involving information collected from or about members of


                                    22 

the public, despite section 208 of the E-Government Act and OMB
Memorandum 03-22 stating otherwise. By conducting PIAs on IT systems that
collect information on DoD personnel, in addition to the public, individuals
within DoD can be assured that their personally identifiable information is as
secure as that of the general public.

Component CIOs did not disseminate DoD PIA Guidance throughout all levels of
their Components. Of the 12 locations visited, 5 were not familiar with or had
never received the DoD PIA Guidance before the audit. Of the five,
four locations did not complete any PIAs and assign PIA responsibilities. The
fifth location completed PIAs but the process used for reviewing, coordinating,
and approving a PIA did not meet DoD requirements.

DoD Component PIA Guidance. DoD PIA Guidance requires that the Military
Departments and heads of DoD Components establish policies and procedures
that implement the DoD PIA Guidance and are consistent with OMB
Memorandum 03-22.

However, Army Regulation 340-21 did not include any PIA requirements because
the Regulation was more than 20 years old. An Army official stated that an
update to the Regulation is in draft. During our review, the Army CIO was
developing draft PIA guidance. SECNAV Instruction 5211.5E included some
PIA requirements, but the Instruction did not include a requirement that an IA
official review and coordinate PIA for compliance with DoD IA policy. The
Instruction also did not require that the Component CIO post approved PIAs to
their public Web site. On June 16, 2006, however, the Navy did issue PIA
guidance, which requires Navy activities to perform PIAs on any new or
significantly altered IT systems that collects information in identifiable form on
Navy military and civilian personnel and members of the public. Although
approved on January 29, 2004, Air Force Instruction 33-332 did not meet the
requirements of the DoD PIA Guidance because it did not require that the
IA official review the PIA for IA implications or designate the Air Force Privacy
Official as the PIA reviewing official at the Air Force CIO. The Instruction also
did not require that system owners send completed PIAs to the DoD CIO and
OMB. One Air Force official stated that the Instruction will be updated by
December 2006.

The Washington Headquarters Service and the Defense Threat Reduction Agency
did not develop any PIA guidance, but the TRICARE Management Activity did.
The TRICARE Management Activity developed the “TRICARE Management
Activity Privacy Impact Assessments (PIAs),” February 10, 2006. The
TRICARE guidance outlines responsibilities of officials, responsibilities for the
PIA process, and instructions on how to manage completed PIAs.

PIA Training. Although DoD does not require PIA training, the DoD Deputy
CIO memorandum of October 28, 2005, requires the Secretaries of the Military
Departments and the heads of other DoD Components to “educate employees and
contractors on their responsibilities for protecting information in identifiable form
that is being collected, maintained, and disseminated by IT systems.” Specific
PIA training should be required at all levels. PIA training would enable
individuals to understand when a PIA is required, the correct reporting structure


                                     23 

    for processing a PIA, and systems requiring a PIA are properly reviewed to verify
    safeguards are in place that limit the risk that personal information will be
    compromised or lost. Of the 12 locations reviewed, the TRICARE Management
    Activity was the only DoD Component that had a formal PIA training program
    and the TRICARE Management Activity system owners were the most
    knowledgeable about the requirements for evaluating IT systems in relation to
    PIAs.

    The implementation of PIA guidance and training is essential to protect personal
    information in information technology systems. The failure to implement PIA
    requirements could result in unauthorized disclosure of personal information
    causing significant harm to members of the public.


Conclusion
    DoD information systems may not conform to DoD and Federal policies
    regarding privacy information, and DoD Components may be operating
    information systems that do not provide safeguards to prevent the compromise
    and misuse of the public’s personally identifiable information. The Components
    should identify the CIOs as the officials responsible for PIAs. The CIO must
    disseminate the DoD PIA Guidance throughout the Components to ensure that
    Components complete PIAs, establish a process for reviewing and approving
    PIAs before forwarding the PIA to the ASD(NII)/DoD CIO and OMB; and post
    the PIA on the public Web site. ASD(NII)/DoD CIO, the Military Departments,
    and DoD Components need to develop additional, clarifying PIA guidance and
    oversee the implementation of the new and current guidance to ensure that the
    Component CIOs are implementing an effective PIA program. PIA training must
    be developed and provided to any individual involved in the PIA process to
    ensure that the requirements of the program are being met.


Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Assistant Secretary of Defense for Networks
    and Information Integration/DoD Chief Information Officer, in coordination
    with the Director of Administration and Management, Office of the
    Secretary of Defense/DoD Senior Privacy Official:

              a. Determine the most appropriate management structure for
    overseeing a Department-level privacy and Privacy Impact Assessment
    program in accordance with the requirements of the E-Government Act of
    2002 and Office of Management and Budget Memorandum 03-22, “OMB
    Guidance for Implementing the Privacy Provisions of the E-Government Act
    of 2002,” September 26, 2003, and subsequent Office of Management and
    Budget guidance for Privacy Impact Assessments and protection of
    personally identifiable information.



                                       24 

Management Comments. The ASD(NII)/DoD CIO concurred with this
recommendation. Management reviewed the current management structure and
determined that a decision to keep the current management structure appears to be
most appropriate. The ASD(NII)/DoD CIO and the Office of the Director of
Administration and Management work closely on protecting personally
identifiable information and PIAs.

Audit Response. ASD(NII)/DoD CIO comments were partially responsive to the
recommendation. We acknowledge the corrective actions taken by management
to address deficiencies identified during this audit. Effective management of
Privacy and PIAs is dependent on consistent coordination between the two
offices. We request that both the ASD(NII)/DoD CIO and the Director of
Administration and Management validate and approve the state of the current
management structure for overseeing Privacy and PIAs in DoD.

          b. Revise the charters of the Assistant Secretary of Defense for
Networks and Information Integration/DoD Chief Information Officer and
the Director of Administration and Management, Office of the Secretary of
Defense/DoD Senior Privacy Official to reflect the conclusions reached under
recommendation B.1.a.

Management Comments. The ASD(NII)/DoD CIO did not respond to the
recommendation stating that this recommendation did not apply based on their
comments on Recommendation B.1.a. The ASD(NII)/DoD CIO stated that
current missions as recorded in DoD policies and regulations are appropriate.

Audit Response. The ASD(NII)/DoD CIO did not comment on this
recommendation because they concluded a revision was not required to the
current management structure. Based on our response to management comments
to Recommendation B.1.a., we request that the ASD (NII) DoD CIO provide
additional comments on the final report.

          c. Revise Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer Memorandum,
“Department of Defense (DoD) Privacy Impact Assessment (PIA) Guidance,”
October 28, 2005, to reflect actions taken in accordance with
Recommendations B.1.a. and B.1.b. and to:

              (1) Require that implementing guidance for the DoD
Components’ revised memorandum be reviewed and approved by the
Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer and issued within 60 days of
publication of the revised Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer memorandum;

Management Comments. ASD(NII)/DoD CIO concurred with this
recommendation. However, management recommends 120 days to issue the
implementing guidance as opposed to 60 days.




                                   25 

Audit Response. ASD(NII)/DoD CIO comments were responsive to the
recommendation. We concur with management’s comments and the request for
120 days to issue the implementing guidance. No further comments are required.

              (2) Require that all DoD Components forward PIAs to the
Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer for review and approval;

Management Comments. The ASD(NII)/DoD CIO partially concurred with the
recommendation, stating that Components will be required to submit their PIAs
after they are approved at the Component level. DoD PIA guidance is expected to
be updated by fourth quarter FY07 and will include this recommendation.

Audit Response. Although management partially concurred with the
recommendation, their comments are responsive to the recommendation. We
discussed this recommendation with ASD(NII)/DoD CIO, and we agree that
management should review PIAs for completion after PIAs have been reviewed
and approved at the Component level. No additional comments are required.

             (3) Require that the Assistant Secretary of Defense for
Networks and Information Integration/DoD Chief Information Officer,
rather than Component Chief Information Officers be responsible for
submitting approved Privacy Impact Assessments to the Office of
Management and Budget;

Management Comments. The ASD(NII)/DoD CIO concurred with the
recommendation. The revised DoD PIA guidance will incorporate this
requirement.

Audit Response. The ASD(NII)/DoD CIO comments are responsive to the
recommendation; therefore, no further comments are required.

               (4) Require that all personally identifiable data for DoD
employees be afforded the same level of assessment and protection provided
to data for the general public;

Management Comments. Management concurred with the recommendation.
ASD(NII)/DoD CIO will incorporate the recommendation into the revised PIA
guidance.

Audit Response. The ASD(NII)/DoD CIO comments are responsive to the
recommendation. We concur with management’s comments with the
understanding that revised PIA guidance will require PIAs for all systems that
contain personally identifiable information on DoD employees and members of
the public. No further comments are required.

              (5) Clarify how the Privacy Impact Assessment request link on
the Web site of the Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer is responsive to the
requirement of the E-Government Act to make Privacy Impact Assessments
publicly available; and


                                   26 

Management Comments. The ASD(NII)/DoD CIO concurred with the
recommendation. The ASD(NII)/DoD CIO PIA website will display a link to
each Component’s PIA website that lists all PIAs after the DoD PIA guidance is
revised in the fourth quarter of FY 07.

Audit Response. The ASD(NII)/DoD CIO comments were responsive to the
recommendation; therefore, no further comments are required.

            (6) Specify the target audience and nature of training that DoD
Components are required to provide for Privacy Impact Assessments.

Management Comments. Management concurred with the recommendation.
ASD(NII)/DoD CIO annually briefs the DoD resource managers on the PIA
requirements for the major IT systems reported in the Exhibit 300s. By July 31,
2007, management will have reviewed the curriculums at the Defense Acquisition
University and Information Resources Management College to determine whether
PIA information is captured in their courses. Also by July 31, 2007, PIA training
content will be added to the Defense Information Systems Agency Information
Assurance training program and distributed DoD-wide.

Audit Response. ASD(NII)/DoD CIO comments were responsive to the
recommendation; therefore, no further comments are required.

B.2. We recommend that the Assistant Secretary of Defense for Networks
and Information Integration/DoD Chief Information Officer require that
DoD Component CIOs:

       a. Disseminate Office of Management and Budget Memorandum 03-
22 and Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer October 28, 2005, Privacy
Impact Assessment guidance to all Component information technology
system owners to assist them in conducting required Privacy Impact
Assessments, pending receipt of revised DoD and DoD Component guidance;

Management Comments. The ASD(NII)/DoD CIO concurred with the
recommendation. The estimated completion date for this task is May 31, 2007.

Audit Response. The ASD(NII)/DoD CIO comments were responsive to the
recommendation; therefore, no further comments are required.

       b. Advise subordinate Component Chief Information Officers and
privacy officers that personally identifiable data for DoD employees should
be afforded the same level of assessment and protection offered to similar
data from the general public.

Management Comments. Management concurred with the recommendation.
The revised DoD PIA guidance will incorporate this recommendation.

Audit Response. The ASD(NII)/DoD CIO comments are responsive. We concur
that this action will be completed after the DoD PIA guidance is revised in the
fourth quarter of FY 07. No further comments are required.


                                   27 

            C. 	Reporting in the DoD Information
                Technology Portfolio Repository
            DoD Components did not accurately report system status information in
            DITPR. This condition occurred because the ASD(NII)/DoD CIO and the
            Components did not have effective internal controls in place to validate
            the accuracy of the system status information posted in the various DITPR
            data elements. As a result, the DoD, OMB, and the Congress are making
            management and budgetary decisions based on unreliable reports
            generated from DITPR, the sole DoD-wide data repository for system
            information on the status of DoD information systems.


DoD Information Technology Portfolio Repository Guidance
    The DoD CIO Memorandum, “Department of Defense (DoD) Information
    Technology (IT) Portfolio Repository (DITPR) and DoD SIPRNet IT Registry
    Annual Guidance for 2006,” May 17, 2006 (DITPR Guidance), states that DITPR
    is the DoD’s authoritative unclassified inventory of IT systems. DITPR is the
    repository for system information used to meet a wide variety of internal and
    external reporting requirements. For example, regularly scheduled reports driven
    by legislative or regulatory mandates using data from throughout DoD, annual
    reports required by other Federal departments, and ad hoc reports using a subset
    of data available in DITPR. DITPR is the DoD data source for, among other
    things, required reporting on system certification, FISMA, E-Authentication, PIA,
    and the Privacy Act, as well as the inventory of systems required by the Clinger
    Cohen Act and for Portfolio Management. DITPR requires that system owners
    answer “trigger” questions that determine whether certain data elements apply to
    their system. When a system owner answers yes to a trigger question, DITPR
    requires additional information. For instance, to determine whether system
    owners should enter PIA and Privacy Act information into DITPR, the system
    owner would answer yes to the question, “Does this system contain personally
    identifiable information?” If the questions do not apply, DITPR requires that
    system owners provide an explanation. However, the database does not have
    automatic controls to preclude incorrect reporting, such as failure to respond to a
    trigger question.


Reporting
    DoD Components did not accurately report information in DITPR. The DITPR
    Guidance reiterates the requirements of the E-Government Act by requiring that
    system owners conduct PIAs for any new or significantly altered IT system that
    collects, maintains, or disseminates information in identifiable form from or about
    members of the public. ASD(NII)/DoD CIO required for the first time that
    system owners complete PIA data elements in DITPR by March 1, 2006, and
    Privacy Act data elements by July 1, 2006. Additionally, OMB
    Memorandum 06-20 of July 17, 2006, requires that agencies immediately provide


                                        28 

quarterly updates on privacy program metrics to OMB to support the President’s
Management Agenda scorecard.

Systems Reviewed. System owners for 7 of the 18 systems (39 percent) stated
that the PIA information in DITPR was not correct. In addition, an IA manager
for four Navy systems stated that she did not know if the information in DITPR
was correct because she did not assess the systems to determine whether they
contained personally identifiable information. However, based on the information
in the briefings of the systems provided to us by the system owners, we
determined that data for 10 of the 18 systems (56 percent) was incorrect. Many of
the system owners stated that they were confused when reporting PIA information
in DITPR because system owners were not familiar with PIA requirements and
therefore could not determine if a PIA was required. See Appendix C for the
18 systems reviewed and those not correctly reported in DITPR.

       Army. We reviewed three Army IT systems that were reported in DITPR
as requiring a PIA. The system owners of two systems, however, subsequently
determined that their DITPR entry was not correct. The system owners stated that
DITPR should report that no PIA is required for the two systems because they did
not contain public information in identifiable form; however, we determined that
one system contained personally identifiable information on members of the
public. According to the system owner, the system contained loan information
for family members or associates of DoD personnel. The loan information
gathered on family members and associates includes names and addresses. In
addition, the system is undergoing a major modification, which creates a new
privacy risk. Therefore, systems owners should have conducted a PIA on the
system and reported in DITPR that the system required a PIA.

       The system owner for the third system stated that the location completed a
PIA and correctly reported in DITPR that a PIA was required. Based on
discussions with the system owners for the three Army systems reviewed, we
determined that the DITPR reporting for one of the three systems was not correct.

        Navy. We reviewed six Navy IT systems. A system owner for
one system completed a PIA and correctly reported in DITPR that a PIA was
required. Another system owner reported in DITPR that a PIA was required
because the system contained privacy protected information. However, the
system had existed for several years and was not undergoing any additional
development. Therefore, the system did not meet the requirement of “new or
significantly altered” system requiring a PIA. DITPR did not identify the caveat.
Accordingly, the system owner should not have listed in DITPR that the system
required a PIA.

       System owners for the remaining four systems reported in DITPR that a
PIA was not required for three systems and was required for the fourth system.
However, the system owners stated that they did not assess the systems to
determine whether a PIA was required because they were not familiar with the
PIA requirements. In June 2006, the Navy issued PIA guidance that requires
systems with personally identifiable information on public and DoD personnel to
conduct a PIA. Based on the new guidance, we determined that all four systems
required a PIA because the systems contained personally identifiable information.


                                    29 

In addition, the IA manager stated that the systems met the PIA requirements
because the systems were constantly being modified. Based on discussions with
the system owners for the six Navy systems reviewed, we determined that the
DITPR reporting for four of the six systems was not correct.

        Air Force. We reviewed six Air Force IT systems. The DITPR reported
that four of the six systems required a PIA. System owners for three of the six
systems stated that DITPR was not correct when reporting that a PIA was
required for those three systems. The system owner for the fourth system
prepared a draft PIA and reported in DITPR that a PIA was required. System
owners for the remaining two systems reported in DITPR that a PIA is not
required; however, one of the two systems met the criteria for requiring a PIA and
contained personally identifiable information. The system required a PIA because
it was initiating a new electronic collection of information in identifiable form for
the public. Also, the system contained the names, social security numbers, and
addresses for family members of DoD personnel and contractors. Based on
discussions with the system owners for the six Air Force systems reviewed, we
determined that the DITPR reporting for four of the six systems was not correct.

       Additionally, at one Air Force location visited, two officials in charge of
updating DITPR stated that they did not know who reported in DITPR that a PIA
was required for their system and did not recall seeing the PIA question before.
The two officials also stated that they were not familiar with a PIA or the PIA
requirements.

        DoD Agencies. We reviewed three DoD agencies’ IT systems. One DoD
agency official stated that when DoD issued PIA Guidance, there was confusion
about which systems required a PIA. System owners for two of the three systems
reported in the DITPR that the system required a PIA. However, the system
owner for one of the two systems subsequently determined that the entry in
DITPR, which identified that a PIA was required, was not correct. The official
stated that the reason the system did not require a PIA was because the system is a
National Security System and exempt from conducting a PIA. The system owner
for the third system stated that the information in DITPR was correct, which
stated that a PIA was not required. Based on discussions with the system owners
for the three Defense agency systems reviewed, we determined that the DITPR
reporting for one of the three systems was not correct.

DoD Component system owners should consult DoD PIA or Component
implementing guidance when performing a PIA for systems containing personally
identifiable information. Component PIA officials should ensure that all levels
within their Component are aware of the DoD PIA and the Component’s
implementing guidance. System owners also need to verify that PIA information
reported in DITPR is accurate, and Component PIA and privacy officials need to
establish effective internal controls to verify reporting accuracy to provide OMB
and Congress with an accurate reporting on the status of DoD information
systems.

PIA Information in DITPR. The DITPR reporting on whether systems required
a PIA fluctuated greatly. On February 13, 2006, DITPR identified that 188 DoD
systems required a PIA; on August 3, 2006, 299 systems required a PIA; and on


                                     30 

     September 5, 2006, DITPR reported that 198 systems required a PIA. As of
     September 8, 2006, DoD Components did not report in DITPR whether a PIA was
     required for 1,367 systems, which included 1,185 Army systems, 91 Navy
     systems, and 27 Air Force systems. ASD(NII)/DoD CIO officials stated that the
     information in DITPR variedly greatly because DITPR was implemented in
     phases.

             Submitting PIAs. On February 14, 2006, the DoD PIA official stated that
     the DoD Components submitted only 19 approved PIAs to the DoD PIA office.
     On August 29, 2006, we asked whether the Components submitted additional
     PIAs to the DoD PIA office since February 2006. The Director of the office
     responsible for the DoD PIA Program stated that the job position designated to
     collect and post PIAs to the ASD(NII)/DoD CIO Web site was vacant. The DoD
     PIA official who was in place in February left in May and has not been replaced.
     The Director did not know how many additional PIAs the DoD Components
     submitted to the DoD PIA office. However, the DoD Components reported in
     DITPR, as of September 5, 2006, that they submitted 36 PIAs to OMB.


Validation of Information
     Naval Postgraduate School Reporting. During interviews with the system
     owners for the 18 systems reviewed, we identified that other security data
     elements for 4 of the 18 systems in DITPR were not correct. The DITPR
     Guidance requires that system owners report whether a system requires
     certification and accreditation. A “yes” response to the question requires that the
     system owner complete the FISMA information in DITPR. The system owner
     must identify, as part of those questions, the accreditation method used for
     certifying and accrediting the system. The method could include the DoD
     Information Technology Security Certification and Accreditation Process, the
     DoD Information Assurance Certification and Accreditation Process, or the
     process used for intelligence systems.
             System owners at the Naval Postgraduate School reported in DITPR that
     four systems had been certified and accredited when they were not. According to
     the IA manager, three of the four systems had been operational for 5 years, and
     the fourth system for 2 years. The IA manager stated that the systems were not
     certified and accredited because the certification and accreditation process was
     “too expensive and takes too long.” The following are the four systems operating
     with no certification or accreditation:

            •   Departmental Online Reporting System;

            •   Electronic Time and Attendance Certification System;

            •   Management Information System; and the

            •   Python Education Management System.




                                         31 

       Before we left the audit site, the IA manager provided memorandums,
signed by the Designating Approving Authority, granting the four systems an
interim authority to operate on May 10, 2006. The IA manager stated that the
length of time the systems had been in operation and the Designated Approving
Authority’s familiarity with the four systems made granting the interim authority
to operate appropriate. According to the IA manager, the interim authorities to
operate were not based on security documentation or testing required for the
system but on the Designated Approving Authority’s knowledge of the system’s
performance.

        The IA manager stated that the System Security Authorization
Agreement—which documents the actions, decisions, security requirements, and
the level of effort needed to certify and accredit any information system—will be
prepared by the end of May 2007. The IA manager stated that once the System
Security Authorization Agreements are complete, the Designated Approving
Authority would grant the four systems an authority to operate.

        As of June 2006, the Naval Postgraduate School reported in DITPR that
three systems were accredited on May 10, 2006 and one system on May 31, 2006,
in accordance with the DoD Information Technology Security Certification and
Accreditation Process, and granted an authority to operate. DITPR also reported
that accreditation would expire on May 10, 2009 and May 31, 2009, respectively.
DITPR should report that the four systems have no authority to operate and that
the accreditation vehicle element in DITPR did not apply because none was used.

        The IA manager’s methodology for granting a system approval to operate
without being certified and accredited is flawed. DoD policy requires that a
specific process be followed prior to granting a system authority to operate. One
cannot base the decision to certify and accredit on the length of time a system has
been in operation or whether the Designated Approving Authority is familiar with
the system when granting the interim authority to operate.

        Until the IA manager prepares the required documentation and
appropriately tests the IA controls identified for the Departmental Online
Reporting System, the Electronic Time and Attendance Certification System, the
Management Information System, and the Python Education Management
System, the Naval Postgraduate School should report to the Navy CIO and the
DoD CIO that the systems are not certified and accredited. The IA manager
should immediately certify and accredit the systems in accordance with DoD
policy and develop a plan of action and milestones for how and when the
certification and accreditation will be completed. Additionally, the Designated
Approving Authority should not grant any authority to operate until the Certifying
Authority certifies the system to operate in an environment that warrants an
acceptable risk that the system’s information is protected to the highest level
required.

Validation of DITPR Information. Component CIOs did not validate the
system information reported in DITPR. The DITPR guidance states that the
Components and Component CIO are responsible for the completeness and
accuracy of the information in DITPR. The guidance requires that a Component
CIO certify in writing that he or she has complied with FISMA, PIA, and privacy


                                    32 

    requirements. The DITPR guidance states that to have complete and authoritative
    data, the Component CIO should implement automated controls, revise internal
    business processes, and establish tracking mechanisms. At a minimum,
    Component CIOs should update and maintain their Components’ input to DITPR
    quarterly. However, the guidance recommends that the CIO change from
    updating each quarterly to updating every time the information changes.

    The CIOs for the Army, Navy, Air Force, and Defense Threat Reduction Agency
    did not correctly report in DITPR PIA information for 10 of 18 systems reviewed.
    Specifically, the Army did not correctly report PIA information in DITPR for
    one system, the Navy for four systems, the Air Force for four systems, and the
    DoD agencies for one system. Additionally, the Navy CIO did not validate the
    accuracy of information reported for the certification and accreditation status of
    four systems. Before executing written certifications, CIOs need to implement
    controls to correct PIA and related information in DITPR.


Prior Reporting
    DoD Inspector General Report No. D-2006-042, “Security Status for Systems
    Reported in DoD Information Technology Databases,” December 30, 2005,
    identifies that IT system information maintained in DITPR, previously known as
    the IT Registry, was unreliable. The report cites that the database was not reliable
    because the DoD CIO and Chief Financial Officer communities failed to enact
    sufficient controls ensuring the accuracy and consistency of Component system
    data. Additionally, the report identifies that ASD(NII)/DoD CIO did not enact
    sufficient controls that would ensure the accuracy of information in DITPR.
    Report No. D-2006-042 states that the DoD FISMA Report to OMB and Congress
    was based on system data that were uncertified by DoD Components and that
    OSD had no other internal control mechanism for validating the data that OSD,
    OMB, and Congress used for management purposes. The report concluded that
    the incorrect, inaccurate, and incomplete information in DITPR diminishes the
    usefulness of the database for management oversight. The report also concludes
    that unless DoD management develops and enforces effective internal quality
    assurance controls over Component-controlled data in DITPR, the situation will
    continue.

    We recommended in DoD Inspector General Report No. D-2006-042 that
    ASD(NII)/DoD CIO advise OMB and the Congress that DoD did not have viable
    internal controls over the accuracy of data it is reporting on the security of its IT
    systems and investments and caveat all reports based on data drawn from
    unreliable databases, such as the IT Registry/DITPR and the Information
    Technology Management Application/Select Native Programming – Information
    Technology until effective internal controls are in place for at least one full year
    reporting cycle. The report also recommends that the ASD(NII)/DoD CIO
    develop internal controls other than Component CIO and Chief Financial Officer
    certifications, report the discrepancies between DoD databases as a material
    control weakness, and develop a Plan of Action and Milestones to track and
    correct deficient conditions. Until such time as the ASD(NII)/DoD CIO



                                         33 

    effectively implements those recommendations, the information from DITPR
    generated in reports to OMB and Congress will remain unreliable.

    The inaccurate PIA information and the Naval Postgraduate Schools misreporting
    of at least four systems in DITPR compounds the fact that the information in the
    DoD FISMA Report to OMB and Congress is unreliable. Unreliable information
    reported in the DITPR jeopardizes the efficient and effective management of IT
    systems and potentially compromises protection of personal information. The
    misreporting further demonstrates the need for ASD(NII)/DoD CIO to develop
    and enforce effective internal quality assurance controls to ensure accuracy of the
    DITPR information.


Conclusion
    Component CIOs did not report accurate information in DITPR to the Office of
    the Secretary of Defense, OMB, and the Congress. As a result, the Office of the
    Secretary of Defense, OMB, and the Congress are making management and
    budgetary decisions based on unreliable reports generated from DITPR-the sole
    DoD-wide data repository for information at the system level for the status of
    DoD information systems. System owners should complete PIAs when required
    to guarantee that safeguards are in place to protect the public’s personal
    information and limit risks. Completed PIAs are not being provided to the DoD
    CIO as required and the DoD CIO does not have an individual in place to track
    PIAs. The accreditation status for Navy systems puts information on those
    systems at risk.

    ASD(NII)/DoD CIO and DoD Components must establish effective internal
    controls to verify that the information in DITPR is accurate. Previous DoD
    Inspector General audit reports identified inconsistencies and inaccuracies of the
    information being reported in DITPR. This persistent problem further
    demonstrates the need for ASD(NII)/DoD CIO to develop and enforce effective
    internal quality assurance controls to ensure accuracy of the DITPR information.


Recommendations, Management Comments, and Audit
  Response
    C.1. We recommend that the Assistant Secretary of Defense for Networks
    and Information Integration/DoD Chief Information Officer:

           a. Establish effective internal controls for DITPR; and

    Management Comments. The ASD(NII)/DoD CIO concurred with the
    recommendation. Annual DITPR guidance has institutionalized a data quality
    improvement program with specific milestones. Data quality results are
    emphasized and reported at monthly meetings of the Technical Solutions
    Integrated Product Team and at bimonthly DITPR In-Process Reviews. The IT
    Management Data Community of Interest has been established to begin building a


                                        34 

netcentric capability for publishing and subscribing to all authoritative and
complete DITPR data. Components will ensure that data they submit are
complete and authoritative through a Verification and Validation study. The
process should ensure that DITPR data elements across the Department are
populated and traceable to complete and authoritative data once fully
implemented.

Audit Response. Management comments are partially responsive to the
recommendation. Although the proposed management corrective action is
responsive to the intent of the recommendation, ASD(NII)/DoD CIO did not
provide an estimated completion date for the corrective action as required by DoD
Directive 7650.3, “Follow-up on General Accounting Office (GAO), DoD
Inspector General (DoD IG), and Internal Audit Reports,” June 3, 2004; Certified
current as of October 18, 2006. We request that ASD(NII)/DoD CIO provide the
proposed completion date.

       b. Appoint an official who will manage and track approved Privacy
Impact Assessments sent to the Assistant Secretary of Defense for Networks
and Information Integration/DoD Chief Information Officer.

Management Comments. Management concurred with the recommendation.
ASD(NII)/DoD CIO, Director of Management Services is assigned to manage and
track PIAs.

Audit Response. ASD(NII)/DoD CIO comments were responsive to the
recommendation; therefore, no further comments are required.

C.2. We recommend that the Assistant Secretary of Defense for Networks
and Information Integration/DoD Chief Information Officer require that
DoD Component Chief Information Officers:

      a. Evaluate the Component inventory of systems in the DoD
Information Technology Portfolio Repository to determine whether the
systems contain personally identifiable information to include information on
DoD personnel;

Management Comments. ASD(NII)/DoD CIO concurred with the
recommendation. Management and the Component CIOs are evaluating systems
that contain personally identifiable information.

Audit Response. The ASD(NII)/DoD CIO comments are partially responsive to
the recommendation. Although proposed management corrective action is
responsive to the intent of the recommendation, the ASD(NII)/DoD CIO did not
provide an estimated completion date for the corrective action as required by DoD
Directive 7650.3. We request that ASD(NII)/DoD CIO provide the proposed
completion date.

        b. Validate that the Privacy Impact Assessment as well as security
status information reported in the DoD Information Technology Portfolio
Repository for the program offices is accurate before certifying to the DoD
Chief Information Office that the information is correct; and


                                    35 

Management Comments. The ASD(NII)/DoD CIO concurred with the
recommendation. The revised PIA guidance and annual DITPR guidance will
emphasize the importance of validating entries into DITPR and certifying that the
information is correct. Reviews of the blank responses to the PIA trigger question
and follow-ups with major Components to identify inconsistencies are being
conducted. This data quality effort will continue until inconsistencies found in
DITPR are corrected. A PIA and Privacy working group meeting is planned for
late March 2007 to provide awareness training and guidance.

Audit Response. The ASD(NII)/DoD CIO comments are responsive to the
recommendation; therefore, no further comments are required.

       c. Implement automated controls, revise internal business processes,
and establish tracking mechanisms that will provide complete and accurate
information to the DoD Information Technology Portfolio Repository.

Management Comments. Management concurred with the recommendation.
Reference Recommendation C.1.a.

Audit Response. The ASD(NII)/DoD CIO comments are partially responsive to
the recommendation. Although management’s proposed corrective actions are
responsive to the intent of the recommendation, ASD(NII)/DoD CIO did not
provide an estimated completion date for the corrective action as required by DoD
Directive 7650.3. We request that ASD(NII)/DoD CIO provide the proposed
completion date.

C.3. We recommend that the Chief Information Officer, Naval Postgraduate
School:

      a. Immediately begin efforts to certify and accredit the Reporting
System, the Electronic Time and Attendance Certification System, the
Management Information System, and the Python Education Management
System in accordance with DoD policy.

Management Comments. The Naval Postgraduate School concurred with the
recommendation. Management has begun the process of the DoD IT Security
Certification and Accreditation Process for all four systems. Once completed, the
System Security Authorization Agreement for each system will be submitted to
Naval Network Warfare Command, Operational Designated Approval Authority
for Approval to Operate. The estimated completion of this task is December 31,
2007.

Audit Response. Naval Postgraduate School comments were responsive to the
recommendation; therefore, no further comments are required.

      b. Report to the Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer; the Chief
Information Officer, Department of the Navy; and in the DoD Information
Technology Portfolio Repository that the Departmental Online Reporting
System, the Electronic Time and Attendance Certification System, the



                                    36 

Management Information System, and the Python Education Management
System are not certified or accredited.

Management Comments. The Naval Postgraduate School concurred with the
recommendation. Management is working with the Department of Navy CIO
office to accurately reflect the certification and accreditation status in the DITPR -
Department of Navy. The estimated completion of this task is December 31,
2007.

Audit Response. The Naval Postgraduate School comments were responsive to
the recommendation; therefore, no further comments are required.

       c. Require that the Designated Approving Authority for the
Departmental Online Reporting System, the Electronic Time and Attendance
Certification System, the Management Information System, and the Python
Education Management System not grant any authority to operate until the
system owners certify the systems to operate in an environment that
warrants an acceptable risk that the system’s information is protected to the
highest level possible.

Management Comments. Management concurred with the recommendation.
The Naval Postgraduate School has completed the evaluation of the IA controls,
the minimum security checklist for each system, the local residual risk
assessment, and the risk statement. The Naval Postgraduate School, system
owner, has confirmed the appropriate security protections are in place for the
systems to process sensitive unclassified information. A Security Test and
Evaluation is planned as part of the certification and accreditation process this
year. The estimated completion of this task is December 31, 2007.

Audit Response. The Naval Postgraduate School comments were responsive to
the recommendation; therefore, no further comments are required.




                                     37 

Appendix A. Scope and Methodology 

   Privacy Impact Assessments. We queried DITPR to identify the Components
   who were reporting that a PIA was or was not required for one or more of their
   systems. On February 13, 2006, 188 systems were identified in DITPR as
   requiring a PIA. We judgmentally selected 10 systems for review, 3 Army,
   3 Navy, 2 Air Force, 1 TRICARE Management Activity, and 1 Defense Threat
   Reduction Agency. We also selected two systems, one Air Force and
   one Washington Headquarters Service system, that were reported in DITPR as not
   requiring a PIA.

   We visited the Privacy and CIO offices for the Departments of the Army, the
   Navy, and the Air Force, the Defense Threat Reduction Agency, the Washington
   Headquarters Service, and the TRICARE Management Activity and the following
   12 program offices responsible for the security of the systems selected for review.
   We reviewed whether system owners were correctly assessing whether a system
   required a PIA, reporting accurate PIA information in DITPR, and submitting
   PIAs to ASD(NII)/DoD CIO. We also reviewed whether the Components posted
   PIAs to their public Web sites.

          •	 Army Criminal Investigative Command, Fort Belvoir Army Base,
             Fort Belvoir, Virginia

          •	 Army Office of the General Council, Arlington, Virginia

          •	 Army Corps of Engineers Finance Center, Millington, Tennessee and
             the Corps of Engineers Program Office, Huntsville, Alabama

          •	 Naval Criminal Investigative Service, Washington Navy Yard,
             Washington, D.C.

          •	 Navy Office of the Judge Advocate General, Washington Navy Yard,
             Washington, D.C.

          •	 Naval Postgraduate School, Monterey, California

          •	 Air Force Reserve Command, Robins Air Force Base, Georgia

          •	 Office of Special Investigations, Andrews Air Force Base, Maryland

          •	 Air Force Air Mobility Command, Scott Air Force Base, Illinois

          •	 Defense Threat Reduction Agency, Fort Belvoir Army Base,
             Fort Belvoir, Virginia

          •	 TRICARE Management Activity, Falls Church, Virginia

          •	 Washington Headquarters Service, Arlington, Virginia




                                       38 

During our visits to the 12 program offices, we determined that the Navy and Air
Force offices owned 6 additional systems. We reviewed 3 Navy and 3 Air Force
systems at these locations. We did not select additional systems for the Army
because the offices visited did not own any additional systems to review. See
Appendix B for the 18 systems selected for review.

We evaluated the PIA program based on the requirements in the E-Government
Act, OMB Memorandums 03-22 and 06-20, the DoD PIA Guidance, the FY06
DITPR Guidance, Army Regulation 340-21, SECNAV Instruction 5211.5E, and
Air Force Instruction 33-332. The policy and guidance reviewed were dated from
July 1985 through May 2006.

We conducted interviews with officials from ASD(NII)/DoD CIO responsible for
the DoD PIA Program; Component-level CIOs, Component-level Privacy, PIA,
and FOIA officials; and Privacy, PIA, and FOIA officials at the program offices.

DoD Privacy Program. At the 12 PIA program offices visited, we also met with
privacy program officials to assess compliance with the DoD Privacy Program.
Specifically, we reviewed systems of records in electronic and paper-based form,
systems notices reported in the Federal Registry, privacy training programs, DoD
and non-DoD forms containing personally identifiable information, and privacy
staffing requirements at each office. We also reviewed personnel folders at the
locations to determine whether Privacy Act statements were included on forms
containing personally protected information, filed in a system of records, and
retrieved by personal identifier.

We interviewed officials and obtained documentation from ASD(NII)/DoD CIO,
the Defense Privacy Office, the Department of the Army CIO, Department of the
Army FOIA/Privacy Act office, Army Corps of Engineers Headquarters,
Secretary of the Navy Chief of Naval Operations FOIA office, Navy CIO, and
Secretary of the Air Force Warfighting Integration and CIO.

We evaluated the DoD Privacy Program based on the requirements of the Privacy
Act of 1974, DoD Directive 5400.11, DoD Regulation 5400.11-R, and OMB
Memorandum M-06-15. The policy and guidance reviewed were dated from
September 1974 through May 2006.

We performed this audit from January through December 2006 in accordance
with generally accepted government auditing standards.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Government Accountability Office High-Risk Area. GAO identified several
high-risk areas in DoD. This report provides coverage of the Protecting the
Federal Government’s Information-Sharing Mechanisms and the Nation’s Critical
Infrastructures high-risk area.




                                   39 

Prior Coverage
      During the last 5 years, the GAO and the DoD Inspector General issued three
      reports discussing the Privacy Act and PIAs. Unrestricted GAO reports can be
      accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
                                  HU                 UH




      can be accessed at http://www.dodig.mil/audit/reports.
                        HU                                UH




GAO
      GAO Testimony GAO 06-77T, “Privacy, Key Challenges Facing Federal
      Agencies,” May 17, 2006

DoD IG
      DoD IG Report D-2004-033, “Terrorism Information Awareness Program,”
      December 12, 2003

      DoD IG Report D-2006-042, “Security Status for Systems Reported in DoD
      Information Technology Database,” December 30, 2005




                                         40 

Appendix B. 	Forms Without Privacy Act
             Statements
   We identified the following forms in a system of records that did not contain a
   Privacy Act statement:

          •	 Department of the Army Form, “Certificate of Clearance and/or
             Security Determination”

          •	 Department of the Army Form 1256, “Incentive Award Nomination
             and Approval”

          •	 Department of the Army Form 7223, “Base System Civilian
             Evaluation Report”

          •	 DD Form 214, “Certificate of Release or Discharge from Active Duty”

          •	 Form PD-21 “Application Forms in the Distance Learning Product
             Development for the 21st Century”
          •	 Form W-4, “Employee’s Withholding Allowance Certificate”

          •	 Form 7311, “Withholding Certificate for Local Taxes”

          •	 Form 50271-101m, “Conversation Record”

          •	 Memorandum Form CICG SC 380-67, “Notice of Intention to Hire”

          •	 Memorandum Form CISP PE 690, “Emergency Contact”

          •	 Optional Form B 873, “Position Description - D.C.”
          •	 Standard Form 7-B, “Request for Estimated Earnings During Military
             Service”

          •	 Standard Form 50-B, “Notification of Personnel Action”

          •	 Standard Form 1199A, “Direct Deposit”

          •	 Standard Form 2817, “Life Insurance Election”




                                       41 

Appendix C. 	Systems Reviewed for Privacy
             Impact Assessments in the DoD
             Information Technology Portfolio
             Repository
     We visited system owners to determine whether the PIA information for
     18 systems was accurate in DITPR. Of the 18 systems reviewed, 12 systems were
     reported in DITPR as requiring a PIA. System owners for 7 of the 18 systems
     (39 percent) stated that the PIA information in DITPR was not correct; also, the
     IA manager of 4 additional Navy systems stated that she did not know if the
     information in DITPR was correct because her systems were not assessed. We
     determined during our review that status reporting in DITPR for 10 of the
     18 systems (56 percent) was not correct. The following is a list, by Component,
     of the 18 systems reviewed.

                                                      PIA Required
                                                   DITPR      System        DITPR
     Component             System Name              Data      Owner        Accurate
    Army
1                   Army Criminal Investigation      yes         no           no
                    and Criminal Intelligence
2                   Corps of Engineers Financial     yes         yes          yes
                    Management System**
3                   Financial Disclosure             yes         no           yes
                    Management System**
    Navy
4                   Departmental Online              no          not          no
                    Reporting System*                         assessed
5                   Electronic Time and              yes         not          yes
                    Attendance Certification*                 assessed
6                   Management Information           no          not          no
                    System**                                  assessed
7                   Nautilus Case Tracking           yes         yes          yes
                    System**
8                   Naval Criminal Investigative     yes         no           no
                    Service Case Management***




                                        42 

                                                                    PIA Required
                                                                DITPR         System          DITPR
       Component                   System Name                   Data         Owner          Accurate
9                          Python Education                        no            not             no
                           Management System**                                assessed
      Air Force
10                         Global Air Transportation               yes           yes             yes
                           Execution System**
11                         Investigative Information               yes           no              no
                           Management System
12                         Leave Request, Approval,                no            no              yes
                           and Tracking System
13                         Mortuary Operations                     no            no              no
                           Management System**
14                         Reserve Component                       yes           no              no
                           Periodic Health System
15                         Web Based Integrated                    yes           no              no
                           Training System
      Defense
      Agencies
16                         Arms Control Enterprise                 yes           no              no
                           System***
17                         Defense Blood Standard                  yes           yes             yes
                           System**
18                         Military Personnel                      no            no              yes
*
 The system contains personally identifiable information on DoD personnel and should be reported in
DITPR as requiring a PIA, in accordance with Navy PIA Guidance.
**
   The system contains personally identifiable information on the public and should be reported in DITPR
as such.
***
    The system contains personally identifiable information on the public; however, it is exempt from
conducting a PIA. A system is exempt from conducting a PIA if the system is a National Security System
or has not been developed or significantly altered since the implementation of the E-Government Act
of 2002.




                                                   43 

Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Networks & Information Integration/DoD Chief
   Information Officer
Assistant Secretary of Defense (Health Affairs)
Director of Administration and Management
Director, Program Analysis and Evaluation

Department of the Army
Administrative Assistant to the Secretary of the Army
Auditor General, Department of the Army
Chief Information Officer, Department of the Army
Auditor General, US Army Corps of Engineers

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Chief Information Officer, Department of Navy
President, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command




                                          44 

Other Defense Organizations
Director, TRICARE Management Activity
Director, Washington Headquarters Service
Inspector General, Defense Threat Reduction Agency
Chief Information Officer, American Forces Information Service
Chief Information Officer, Defense Advanced Research Projects Agency
Chief Information Officer, Defense Contract Audit Agency
Chief Information Officer, Defense Contract Management Agency
Chief Information Officer, Defense Commissary Agency
Chief Information Officer, Defense Finance and Accounting Service
Chief Information Officer, Defense Human Resource Activity
Chief Information Officer, Defense Information Systems Agency
Chief Information Officer, Defense Logistics Agency
Chief Information Officer, Department of Defense Education Activity
Chief Information Officer, Defense Security Cooperation Agency
Chief Information Officer, Defense Security Service
Chief Information Officer, Defense Technical Information Center
Chief Information Officer, Defense Threat Reduction Agency
Chief Information Officer, DoD Test Resources Management Center
Chief Information Officer, Defense Technology Security Administration
Chief Information Officer, Missile Defense Agency
Chief Information Officer, Pentagon Force Protection Agency
Chief Information Officer, TRICARE Management Activity
Chief Information Officer, Washington Headquarters Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
       Committee on Oversight and Government Reform

House Subcommittee on National Security and Foreign Affairs, 

       Committee on Oversight and Government Reform





                                         45 

Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information
Officer Comments


                                          DEPARTMENT OF DEFENSE
                                              6000 DEFENSE PENTAGON
                                             WASHINGTON, DC 2 0 3 0 1 - 6 0 0 0



                                                 0 7 MAR 2007
    CHIEF INFORMATION OFFICER


            MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDITING
                             INSPECTOR GENERAL OF THE DEPARTMENT OF
                             DEFENSE


            SUBJECT: Draft Report on "DoD Privacy Program and Privacy Impact Assessments"
                     (Project No. D-2006-D000AL-0087.00)


                   Thank you for the opportunity to review the subject report. Attached is our

            response to thefindingsand recommendations. We look forward to further coordination

            ou this important topic, The DoD Chief Information Officer point of contact on this

            matter is Mr. Gary Evans, (703) 604-1489, ext, 102.




                                                 David     M. Wennergren
                                                     Deputy Chief Information Officer

           Attachment:
           As stated




                                                        47 

     DoD CIO Response to DoD Office of Inspector General (OIG) Draft Audit Report, 

              "DoD Privacy Program and Privacy Impact Assessments" 

                         (Project No. D2006-D00AL-0087.000) 




Section B. DoD OIG Privacy Impact Assessment (PIA)
Recommendations
OIG Recommendation B.l. We recommend that the Assistant Secretary of Defense for
Networks and Information Integration/DoD Chief Information Officer, in coordination
with the Director of Administration and Management, Office of the Secretary of
Defense/DoD Senior Privacy Official:

        a. Determine the most appropriate management structure for overseeing a
Department-level Privacy and PIA program in accordance with the requirements of the E-
Government Act of 2002 and Office of Management and Budget Memorandum 03-22,
"OMB Guidance for Implementing the Privacy Provisions of the E-Government Act of
2002," September 26, 2003, and subsequent Office of Management and Budget guidance
for Privacy Impact Assessments and protection of personally identifiable information

Response: Concur. After review of the current management structure, a decision to keep the
current management structure appears to be most appropriate. The Director, Defense Privacy
Officer, Office of Director, Administration and Management (DA&M) and the Office of the
DoD CIO work closely on OMB requirements concerning protecting personally identifiable
information and privacy impact assessments.

        The Director, Administration and Management, Office of the Secretary of Defense, is the
designated DoD Senior Privacy Officer and responsible for privacy policy. The DoD Chief
Information Officer responsibilities include but are not limited to information resources
management, information systems, and performance of the duties and fulfillment of the
responsibilities associated with information security and other matters under section 3544 of
Title 44, United Stales Code.

        I>. Revise the charters of the Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer and the Director of
Administration and Management, Office of the Secretary of Defense/DoD Senior Privacy
Official to reflect the conclusions reached under Recommendation B.l.a.

Response: NA. The current missions as recorded in DoD policies and regulations are
appropriate.

       c. Revise Assistant Secretary of Defense for Networks aud Information
Integration/DoD Chief Information Officer Memorandum, "Department of Defense (DoD)
Privacy Impact Assessment (PIA) Guidance," October 28, 2005, to reflect actions taken in
accordance with Recommendations B.l.a. and B.l.b. and to:




                                                                         Attachment (1)




                                              48 

     DoD CIO Response to DoD Office of Inspector General (OIG) Draft Audit Report, 

              "DoD Privacy Program and Privacy Impact Assessments" 

                        (Project No. D2006-D000AL-0087.000) 


          (1) Require that implementing guidance for the DoD Components' revised 

memorandum be reviewed and approved by the Assistant Secretary of Defense for 

Networks and Information Integration/DoD Chief Information Officer and issued within 

60 days of publication of the revised Assistant Secretary of Defense for Networks and 

Information Integration/DoD Chief Information Officer memorandum; 


Response: Concur. The Office of the DoD CIO recommends 120 days instead of 60 days for
the Components to issue their implementing guidance.

          (2) Require that all DoD Components forward PIAs to (he Assistant Secretary of
Defense for Networks and Information Integration/DoD Chief Information Officer for
review and approval;

Response: Partially Concur. The Component CIOs are the subject matter experts to review
and approve their system PIA. The Components will be required to submit their PIAs to the
Office of the DoD CIO after approved at the Component level for submission to the Office of
Management and Budget (OMB). The revised DoD PIA guidance will incorporate this
requirement in fourth Quarter FY07.

           (3) Require that the Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer, rather than Component Chief
Information Officers be responsible for submitting approved privacy impact assessments to
the Office of Management and Budget;

Response: Concur, The revised DoD PIA guidance will incorporate this requirement.

          (4) Require that all personally identifiable data for DoD employees be afforded
the same level of assessment and protection provided to data for the general public;

Response: Concur. The revised DoD PIA guidance will incorporate this recommendation. Of
note, DoD CIO Policy Memorandum, "Department of Defense Guidance on Protecting
Personally Identifiable Information (PII)," August 18, 2006, directed Components to ensure that
all PII not explicitly cleared for public release be protected according to Confidentiality Level
Sensitive, as established in DoD Instruction 8500.2, "Information Assurance Implementation,"
February 6, 2003.

          (5) Clarify how the privacy impact assessment request link on the
Web site of the Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer is responsive to the requirement of the
E-Government Act to make privacy impact assessments publicly available;

Response: Concur. Currently, each Component maintains a repository of its PIAs. They arc
required to be posted at a central location on the Component's public website until the system is
terminated. The DoD CIO website maintains a "PIA Request" link to respond to public requests
regarding DoD IT systems containing information in identifiable form. In the future, the DoD


                                                2                          Attachment (I)




                                                49 

     DoD CIO Response to DoD Office of Inspector General (OIG) Draft Audit Report, 

              "DoD Privacy Program and Privacy Impact Assessments" 

                        (Project No. D2006-D000AL-0087.000) 


CIO PIA website will display a link to each Components PIA website listing all PIAs. Estimated
completion date for this task is in fourth Quarter FY07.

          (6) Specify the target audience and nature of training that DoD components are 

required to provide for privacy impact assessments. 


Response: Concur. The nature of the training is to understand the requirements to do PIAs and
the DoD PIA guidance. The Office of the CIO annually briefs the DoD resource managers on
the PIA requirements for the major IT systems reported in the Exhibit 300s. In the near future
(by July 31, 2007), the Office of the DoD CIO will review the curriculums at Defense
Acquisition University and Information Resources Management College to ensure content is
captured in their courses. In addition, we are in the process of adding PIA training content in the
DISA Information Assurance training program, which is distributed DoD-wide. Expected
completion July 31, 2007.

B.2. We recommend that the Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer require that DoD
Component CIOs:

        a. Disseminate Office of Management and Budget Memorandum 03-22
and Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer October 28, 2005, privacy impact
assessment guidance to all Component information technology system owners to
assist them in conducting required privacy impact assessments, [tending receipt of
revised DoD and DoD Component guidance;

Response: Concur. Estimated completion date for this task is May 31, 2007.

        b. Advise subordinate Component Chief Information Officers and privacy
officers that personally identifiable data for DoD employees should he afforded
the same level of assessment and protection offered to similar data from the
general public.

Response: Concur. The revised DoD PIA guidance will incorporate this recommendation.

Section C. Reporting in the DoD Information
Technology Portfolio Repository (DITPR), DoD OIG
Recommendations.
C.l. We recommend that the Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer:

       a. Establish effective internal controls for DITPR;


                                                3                          Attachment (1)




                                               50
     DoD CIO Response to DoD Office of Inspector General (OIG) Draft Audit Report, 

              "DoD Privacy Program and Privacy Impact Assessments" 

                        (Project No. D2006-D000AL-0087.000) 



Response: Concur. To establish and police effective internal controls, annual DITPR guidance
has institutionalized a data quality improvement program with specific improvement milestones,
Data quality results are emphasized and reported at each monthly Technical Solutions IPT
meeting and at the bi-monthly DITPR IPR, In addition, the DoD CIO has established an IT
Management Data Community of Interest (COI). This COI has begun the process of building a
Net-Centric capability for publishing and subscribing to all authoritative and complete DITPR
data. As part of this process, each Component entering data into DITPR will document, in a
detailed Verification and Validation study, how they are assured that the data they arc submitting
to DITPR is complete and authoritative. When fully implemented, the processes established by
the COI should ensure that DITPR data elements across the Department are populated and
traceable to complete and authoritative data.

       b. Appoint an official who will manage and track approved privacy impact
assessments sent to the Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer.

Response: Concur. The DoD CIO, Director of Management Services is assigned to manage
and track privacy impact assessments and to work closely with the Director, Defense Privacy
Officer, Office of Director, Administration and Management. Action completed. Recommend
close out.

C.2. We recommend that the Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer require that DoD
Component Chief Information Officers:

      a. Evaluate the Component inventory of systems in the DoD Information
Technology Portfolio Repository to determine whether the systems contain
personally identifiable information to include information on DoD personnel;

Response: Concur, The Office of the DoD CIO and the Component CIOs are in the process of
evaluating which systems contain PII in their systems.

       b. Validate that the privacy impact assessment as well as security status information
reported in the DoD Information Technology Portfolio Repository for the program offices
is accurate before certifying to the DoD Chief Information Office that the information is
correct; and

Response: Concur. The revised PIA guidance and annual DITPR guidance will emphasize the
importance of validating entries into DITPR and certifying that the information is correct. Since
November 1, 2006, the Office of the DoD CIO PIA POC has been reviewing the validity of the
PIA data and corresponding with the Components to correct their information. Over the last 4
months, the Component PIA POCs have reduced the number of blank PIA trigger answers from
approximately 800 in September 2006 to 179 blanks on February 27, 2007. In addition, follow-
ups are being conducted with the major Components to identify inconsistencies in their data,


                                                4                          Attachment (1)




                                                51 

     DoD CIO Response to DoD Office of Inspector General (OIG) Draft Audit Report, 

              "DoD Privacy Program and Privacy Impact Assessments" 

                        (Project No. D2006-D00AL-0087.000) 


This data quality effort will continue until the inconsistencies found in the DITPR arc corrected.
On February 16, 2007, the Office of the DoD CIO held a meeting with the major Components to
discuss PIAs and issues. A PIA and Privacy working group meeting will be held in late March
2007 to provide awareness training and guidance. The DoD OIG representatives will be invited
to this meeting and future meetings of this working group.

       c. Implement automated controls, revise internal business processes, and establish
tracking mechanisms that will provide complete and accurate information to the DoD
Information Technology Portfolio Repository.

Response: Concur. The DoD CIO has established an IT Management Data COI. This COI has
begun the process of building a Net-Centric capability for publishing and subscribing to all
authoritative and complete DITPR data. As part of this process, each Component entering data
into DITPR will document, in a detailed Verification and Validation study, how they are assured
that the data they are submitting to DITPPR is complete and authoritative. When fully
implemented, the processes established by the COI should ensure that DITPR data elements
across the Department are populated and traceable to complete and authoritative data,




                                                5                         ' Attachment (1)




                                               52 

Director of Administration and Management
Comments


                                    OFFICE OF THE SECRETARY OF DEFENSE 

                                                 1950 DEFENSE PENTAGON 

                                                WASHINGTON. DC 20301-1950 


   MAR 14 2007
   ADMINlSTRATION AND
      MANAGEMENT




                 MEMORANDUM FOR THE INSPECTOR GENERAL, DOD

                 SUBJECT: Report on Audit of DoD Privacy Program and Privacy Impact Assessments
                          (Project No. D2006-D000AL-0087.000)

                    I appreciate the opportunity to review and comment on your draft audit report of the DoD
                 Privacy Program.

                     Except as otherwise noted in the attached comments. I generally concur with your Findings
                 but not with your recommendations. As discussed in the attachment, the current or soon to be
                 revised DoDD 5400.11 and DoD 5400.11-R appear to provide the necessary and appropriate
                 guidance to the Military Departments and the DoD Components. However, I also am directing
                 that a review of the DoD Privacy Program be conducted where, among other objectives, the
                 effectiveness of the decentralized management approach to Privacy will be assessed, to include
                 what personnel and resources may be required to strengthen the current program. The target date
                 for completion of the review is in the fourth Quarter, FY 2007.

                     Your audit, however, identifies a systemic problem that continues to impact the DoD Privacy
                 Program, i.e., the failure of many in the DoD workforce to be cognizant of the applicable
                 statutory and regulatory requirements for Privacy. As you would agree, absent a workforce that
                 is sensitive and responsive to program requirements and demands, there will be failures. And
                 while the failures are attributable to ignorance of the rules and regulations, and not to acts of
                 malfeasance, the fact remains that the failures frustrate key objectives sought by Congress in the
                 Privacy Act of 1974.

                     I firmly believe that a viable training program, where individuals who interact with privacy
                 protected information are made aware, and are subsequently reminded, of their reporting and
                 safeguarding responsibilities under the law and implementing DoD/Component regulation, is the
                 key to overcoming the present program deficiencies. As your report points out, a framework for
                 Privacy training now exists in DoD 5400.11-R. The problem is that implementation of the
                 training requirements is not uniform across the Components, principally because time and
                 resource constraints impact a Component's ability to provide the needed training. But as you also
                 have discovered during the audit, the Components are making use of technology, i.e., web-based,
                 to reach their target audiences and to provide such training. As such training is expanded and
                 fine-tuned, it is anticipated that workforce awareness of program requirements and demands will
                 increase and that program vulnerabilities will decline.



                                                       Michael B, Donley
                                                       DoD Senior Privacy Official

                 Attachment: 

                 As stated 





                                                               53 

Final Report 

 Reference 





                                           DoDIG Project No. D2006-D000AL-0087.000

                                "Report on Audit of DoD Privacy Program and Privacy Impact Assessments"

                                              DoD Senior Privacy Official Comments

                 Page 4.

                 Finding. The report states that program failures occurred, in part, because the DoD Privacy
                 Office (DPO) has not established oversight mechanisms for effective Program execution.

                 The report does not acknowledge that DPO has a number of mechanisms in place, similar to those
                 used by the Office of Management and Budget in its oversight role for Federal Privacy, that
                 permits DPO to oversee the Component Privacy Programs. First, it has a dedicated technical
                 channel with Component Privacy officials that provides DPO not only insight as to what is
                 occurring in the Component but permits the Component to surface problems that they are
                 encountering. Second, DPO exercises oversight in its role as a reviewing and approval authority
                 for Privacy Act system of records notices. The review process provides a window into how the
                 Components are complying with the requirements of the Act. Third, DPO exercises oversight via
                 the Federal Information Security and Management Agency (FISMA) Privacy Report, a report
                 card on how agencies are complying with Federal privacy mandates. As part of the Department's
                 report to OMB, DPO prepares a narrative statement based> in part, on input provided by the DoD
                 Components. In effect, the Components are tasked to assess their programs. The resulting input
                 provides a window into how the Components arc viewing their respective Privacy Programs.
                 This input also provides DPO an opportunity to assess the current health of the Component's
                 Program. And fourth, the DoDIG and Component IGs are a means, as evidenced by the instant
                 audit, to exercise oversight, a means that, until now, has not been frequently utilized,

                 Page 6 and Appendix B.

                 Finding. The report identifies a number of Forms that did not include a Privacy Act Statement
                 (PAS).

                 A review of each of the identified Forms was not conducted. However, Standard Form (SF) 2S17
                 and the SF 1199A do contain a PAS. For the Form 2817, the location of the PAS is described at
                 the top of page 1. For the Form 1199A, the PAS is set forth on the back of the Form under the
                 heading ""Please Read This Carefully." And finally, SF 50-B does not require a PAS as
                 information is not being collected directly from the individual.

Pages 11-16 
    Pages 10-11.

                 Recommendation a.(1). Modify DoDD 5400.11 to require DoD Components to provide bi­
                 annual certifications to the DPO for review that Program requirements, e.g.. training, system of
                 records notices. Privacy Act Statements, etc. are being implemented and followed.

                 The report acknowledges that current program requirements are set forth in DoDD 5400.11 and
                 DoD 5400.11-R. The Components are now under an affirmative obligation to ensure that the
                 Program mandates are met. In turn, the Components have promulgated privacy issuances that
                 reaffirm the requirements set forth in the DoD issuances.




                                                               54 

A biannual certification requirement will not remedy the deficiencies identified in the report nor
will it significantly contribute to the DPO exercising oversight over the Component's programs.
As the report makes clear, program execution is not due to the lack of guidance, but to the fact
that Component personnel are not always aware of the guidance. These failings will persist until
the workforce is sensitized to the demands and requirements of the program.

Component FISMA Privacy reporting is a much more effective tool for overseeing and reviewing
Component compliance with program requirements.

Recommendation a.(2). Modify DoDD 5400.11 to require DoD Components to require that PASs
are included on any DoD and non-DoD form used to collect identifiable information regardless of
who provides the information.

The report points out that DoD 5400.1l-R currently requires that Forms, whether DoD or not,
contain a PAS if the information is being collected directly from the individual and is to be filed
in a Privacy Act system of records.

Neither the Privacy Act nor the DoD guidance require that a PAS be provided by a third party
who is furnishing information about an individual. Congressional intent was that information be
collected to the greatest extent practicable from the individual and that when collecting such
information that the individual is provided certain information so that he or she could make an
informed decision whether or not the information should be furnished. Congress, however,
recognized that this requirement may not be practical in all cases for financial or logistical
reasons or because of other statutes. Such a case exists when supervisors or other administrative
personnel enter information into a Privacy Act system of records based on information that is
available to them. Such personnel are executing the duties of their offices and in order to
properly discharge those duties, the information must be entered.

Recommendation a.(3). Modify DoDD 5400.11 to require that Privacy Officers receive
management privacy training within 90 days of appointment and include the privacy training
requirement in performance standards established by Privacy Officials.

It is agreed that, unless designated Privacy Officials are trained, their ability to execute a
successful Privacy Program is impacted. DoD 5400.1l-R, rather than DoDD 5400.11, will be
changed to incorporate this specific requirement.

Incorporating a privacy training requirement into the performance standards of Privacy Officials
possesses merit and warrants further study. This proposal will be evaluated as part of the DoD
Privacy Program review.

Recommendation a.(4). Modify DoDD 5400.11 to require that individuals implementing privacy
requirements and/or handling personal information receive appropriate specialized training and
management training identified in DoD 5400.1l-R.

The current DoD Regulation on Privacy provides guidance on such training. The revised
Regulation, which is undergoing final review, has been expanded to provide additional guidance
as well.

Recommendation a.(5). Modify DoDD 5400.11 to require annual Privacy Act Awareness
training for all DoD employees that includes a certification for completion.



                                                 2




                                               55 

How often Privacy Awareness training should be offered and conducted is now at the discretion
of the Components as they are in the best position of judging the need and frequency for such
training.

The soon to be approved DoD Regulation on Privacy will provides that, insofar as personnel who
interact with privacy protected information are concerned, Components shall conduct training as
frequently as believed necessary so as to ensure that personnel are sensitive to the requirements of
the Regulation. The Regulation further will provide that Components shall give consideration to
whether annual training and/or annual certification should be mandated for all or specified
personnel whose duties and responsibilities require daily interaction with personally identifiable
information.

Recommendation b. Assess the DoD privacy program for staffing levels and resources required
to enable Privacy officials to effectively fulfill their Privacy duties and recommend resource
allocations to ensure a viable Privacy program.

It is agreed that Component staffing levels and resources should be assessed with a view of
determining what can be done to enhance Program effectiveness. The Assessment will be
conducted as part of the DoD Privacy Program review.

Recommendation c. Modify DoDD 5400.11 to require Component Privacy Officials , in
coordination with the Component Chief Information Officers, support preparation of the
certifications required in Recommendation a.

Unless a Component Chief Information Officer is responsible for the Component Privacy
Program, the Component CIO will not have a direct role in a Component's Privacy Program.

This does not mean that the Component ClOs do not have a critical role to play regarding
Privacy. They do. The CIO has primary responsibility for technical security of Component IT
systems. In this area, it can be said that there is a "shared" responsibility between the Component
Privacy Official and the Component CIO as the CIO responsibilities directly impact the
Component's Privacy Program. In effect, the Component Privacy Official relies on the
Component CIO to develop the appropriate technical safeguards that will safeguard personally
identifiable information in IT systems, thereby permitting the Component to be in compliance
with the Privacy Act and implementing DoD/Component authority.

Recommendation c.(l), Modify DoDD 5400.11 to require Component Privacy Officials, in
coordination with the Component Chief Information Officers, to develop an authoritative
inventory of Component systems of records containing personally identifiable information.

DoD 5400.11-R presently requires that DPO maintain an authoritative inventory of Component
Privacy Act systems of records notices. The inventory, which is posted to the DPO web site at
www.dod.mil/privacy/notices, contains the notices for 1,174 systems of records. The inventory
covers automated (IT) systems, manual systems, and hybrid systems (part automated, part
manual).

Recommendation c.(2). Modify DoDD 5400.11 to require Component Privacy Officials, in
coordination with the Component Chief Information Officers, to prepare system notices for the
inventory of system of records being maintained.




                                                 3




                                               56 

D o D 5400.11 presently imposes an affirmative obligation on DoD system managers to prepare
promptly any required new, amended, or altered system notice for the system and to forward
them to the Component Privacy Official for review when a system qualifies as a Privacy A c t
system o f records,.

Recommendation c.(3) M o d i f y D o D D 5400,11 to require Component Privacy Officials, in
coordination with the Component Chief Information Officers, to oversee subordinate privacy
programs by conducting privacy reviews and verifying that privacy training is being conducted at
all required levels,

Component Privacy Official are currently required, incident to providing input for the F I S M A
Privacy Report, to review their Privacy Programs, to include assessing whether their training
programs are ensuring that personnel are generally familiar with information privacy laws.
regulations and policies and whether appropriate job-related training is being offered.




                                                 4




                                               57 

Naval Postgraduate School Comments 



                                                  DEPARTMENT OF THE NAVY
                                                     NAVAL POSTGRADUATE SCHOOL
                                                           1UNIVERSITYCIR
                                                                                                       MONTEREYCA 93943-5000 IN REPLY REFER TO
                                                                                                            2 MaR 07


       From:  President,           Naval P o s t g r a d u a t e School
       To:   Department            o f t h e Navy - C h i e f I n f o r m a t i o n   Officer

        Subj :    DODIG DRAFT OF A PROPOSED REPORT, DoD PRIVACY PROGRAM
                  AND PRIVACY IMPACT ASSESSMENTS (PROJECT NO. D2006-D000AL-0087.000) 


        Ref:     {a}   DOD IG Memorandum o f F e b r u a r y 6, 2007
                   (b) DODIG P r o j e c t No. D2006-DOOOAL-0087.000                   Draft    Report.

        Encl:     (1)   Management Comments t o Recommendations

        1. P e r r e f e r e n c e s (a) a n d (b) t h i s i s i n r e s p o n s e t o s u b j e c t d r a f t r e p o r t , of
        6 February 2007, provided t o t h i s off ice for review and comment. Upon review
        of the draft r e p o r t , we concur with the findings made by the O f f i c e of
        I n s p e c t o r General [OIG], Department of Defense (DoD). NPS has addressed a l l
        r e c o m m e n d a t i o n s a n d h a v e e i t h e r i m p l e m e n t e d o r a r e i n t h e p r o c e s s of.
        implementing them.

        7.  P l e a s e a d d r e s s any q u e s t i o n s t o Ms. Lynn Murch o r Ms. D e n i s e R o s s ,
        Command E v a l u a t i o n , T e l : 8 3 1 . 6 5 6 . 2 5 5 7 / 2 7 5 1 o r e m a i l
        lmurch@nps.edu/djross@nps.edu.



                                                                 DAVID A. SMARSH
                                                                 Chief Of S t a f f




                                                                                                            Enclosure         (1)




                                                              58 

              Management Response to DoD IG Draft Audit Report, 

            Project No. D2006-D000AL-0087.000, DoD Privacy Program 

            and Privacy Impact Assessments, dated 6 February 2007 


C. Reporting in the DoD Information Technoloqy Portfolio Repository. 


Recommendation C.3.a: Immediately begin efforts to certify and accredit the
Reporting System, the Electronic Time and Attendance Certification System,
the Management 

Information System, and the Python education Management System in accordance 

with DoD policy. 


Management Comment: Concur. The four Naval Postgraduate School systems 

listed in the DITPR-DON, the Departmental Online Reporting System, the 

Electronic Time and Attendance Certification System, the Management 

Information System and the Python Education Management Systems have begun the 

process of the DoD Information Technology Security Certification and 

Accreditation Process (DITSCAF), The following portions of the DITSCAP have 

been completed: the contingency plans have been written and tested, the DoD 

8500.2 Information Assurance Controls that require annual review have been 

reviewed, the DoD 8510.l Minimum Security Checklist has been completed and a 

residual risk assessment has been completed. We will conduct the Security 

Test and Evaluation and to complete the written documentation for the System 

Security Authorization Agreement {SSAA) on each system. The SSAA will then 

be submitted to NETWARCOM, Operational DAA lor Approval to Operate (ATO). 


Estimated Completion Data:   The estimated date of completion is 31 Dec 07. 


Recommendation C.3.b: Report to the Assistant Secretary of Defense for 

Networks and Information Integration /DoD Chief Information Officer; the Chief 

Information Officer, Department of the Navy; and in the DoD Information 

Technology Portfolio Repository that the Departmental Online Reporting 

System, the Electronic Time and Attendance Certification System, the 

Management Information System, and the Python Education Management System are 

not certified or accredited. 


Managemant Comment: Concur. The Naval Postgraduate School is currently 

working with the Department of Wavy Chief information Officer's office to 

accurately reflect the certification and accreditation status in the DoD 

information Technology Portfolio Repository - Department of Navy. 


Estimated Completion Date: The estimated date of completion is 31 Dec 07. 


Recomendation C.3.c: Require that the Designated Approving Authority for 

the Departmental Online Reporting System, the Electronic Time and Attendance 

Certification System, the Management Information System, and the Python 

Education 

Management System not grant any authority to operate until the system owners 

certify the systems to operate in an environment that warrants an acceptable 

risk that the system's information is protected to the highest level 

possible. 


Management Comment: Concur. The Naval Postgraduate School has completed the 

evaluation of the information assurance controls, and the minimum security 

checklist for each system. The residual risk assessment has been done 

locally and the risk statement has been completed. The system owner, the 

Naval Postgraduate School, has confirmed the appropriate security protections 





                                     59 

are in place for the systems t o process s e n s i t i v e u n c l a s s i f i e d information,
Additionally,             a Security Test and Evaluation is planned as p a r t of the
c e r t i f i c a t i o n and a c c r e d i t a t i o n process t h i s year.
E s t i m a t e d Completion Data:   The estimated d a t e of completion is 31 Dec 07.




                                              60 

Department of the Navy Comments 


                                       DEPARTMENT OF THE NAVY
                                       CHIEF INFORMATION OFFICER 

                                           IOOO NAVY PENTAGON 

                                       WASHINGTON DC 20350-lOOO 

                                                                                            8 March 2007

     From: Department of the Navy Chief Information Officer

     To:    Inspector General, Department of Defense
            Audit Follow-up and GAO Affairs
            400 Army Navy Drive
            Arlington, VA 22202

     Subj: DOD-IG PROJECT NO, D-2006-D000AL-0087.000, "REPORT ON AUDIT OF THE
           DOD PRIVACY PROGRAM AND PRIVACY IMPACT ASSESSMENTS" ­
           RESPONSE TO DRAFT REPORT ISSUED 6 FEB 2007

     Encl: (1) NAVPGSCOL ltr 3000 Ser 00/018 of 2 Mar 07

              The above referenced audit report recommended revisions to the Department of the
     Navy's (DON) Privacy Program. The DON Chief Information Officer (CIO) concurs with the
     need to update the SECNAVINST 5211.5E in order to reflect changes in DON's management of
     its Privacy Program and affected policies and practices. Specifically, SECNAVINST 521l.5E is
     under review and will incorporate recommendations made by the Department of Defense
     Inspector General (DoD-IG) audit team, as appropriate. The DON will implement the Privacy
     Program requirements stipulated by the Office of Management and Budget (OMB) and the
     Department of Defense (DoD) to ensure the security of Personally Identifiable Information (PII)
     throughout the DON.

             The DON agrees the ever-increasing threats to PII, through accelerated technological
     advances, increases vulnerability. Significantly, the substantial increase in identity theft reports
     necessitated additional financial, human, and equipment resources be devoted to the Privacy
     Program effort. Accordingly, the DON took the following actions in concert with the DON
     Privacy Act and Freedom of Information Act Office to reduce the threat and increase awareness
     for our personnel:

                 •	   Updated the DON's privacy web site, including identification of all approved
                      Privacy Act Systems of Records.
                 •	   Reviewed approximately one-third of the DON's system inventory to ensure
                      proper reporting.
                 •	   Listed all changes to systems and posted these changes to the DON's privacy
                      web site,
                 •	   Developed and posted required privacy training materials on the DON'S privacy
                      web site.
                 •	   Issued the SECNAVINST 5211.5E in December 2005, which is currently being
                      revised to ensure compliance with recent regulatory changes.
                 •	   Formed Privacy working groups to address best practices and improve DON
                      policy and guidance.
                 •	   Designated one Full Time Equivalent (FTE) in the Information Assurance (IA)
                      section of the DON CIO to focus on Privacy Impact Assessments (PIA) and
                      coordinate activities with the DON Privacy Act and Freedom of Information Act
                      Office,




                                                     61 

Subj: DODIG PROJECT NO. D-2006-D000AL-0087.000, "REPORT ON AUDIT OF THE
      DOD PRIVACY PROGRAM AND PRIVACY IMPACT ASSESSMENTS" ­
      RESPONSE TO DRAFT REPORT ISSUED 6 FEB 2007

        In an effort to coordinate its policies within the DON, the DON Deputy CIO (Marine
Corps) reports that it is drafting policy for the:

           •	   Initiation, processing, review, and submission of PIAs for information technology
                systems.
           •	   Handling, maintaining, disposal, and training of personnel with regard to PII.
           •	   Reporting of loss or possible compromise of PII,

        The DON CIO confirms the specific recommendations provided in the audit regarding
the Naval Postgraduate School were accepted and are being instituted. Enclosure (I) provides
substantial details on actions being taken.

        The DON has met the intent of the audit by committing additional resources, instituting
appropriate changes to privacy policies and procedures, incorporating recommendations from
several sources, and improving the Navy's and Marine Corps' management of PII. We
appreciate the DoD-IG's efforts in support of the DON to improve the effectiveness of our
Privacy Program.



                                     John    J.     Lussier


Copy to: 

NAVINSGEN (Attn: J. Gilbert) 

CNO (N61) 

CMC (C4) 





                                                  62 

Department of the Air Force Comments 




                                 DEPARTMENT OF THE AIR FORCE




    OFFICE OF THE SECRETARY
                                                                                       8 March 2007

        MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FORAUDITING 

                  OFFICE OF THE INSPECTOR GENERAL 

                   DEPARTMENT OF DEFENSE 

       PROM: SAF/XC

       subject:   DoDIG Draft Audit Report, DoD Privacy Program and Privacy Impact Assessments,
                  (Project No. D2006-D000AL-0087.000)

       1. This is in reply to your memorandum requesting the Assistant Secretary of the Air Force
       (Financial Management and Comptroller) to provide Air Force comments on subject report.

       2. I appreciate the opportunity to review and comment on your draft audit report of the DoD
       Privacy Program relative to the AirForceportion.

       3. The Air Force concurs, without comment, to the DoDIG audit Findings/Recommendations
       associated with Section A, Privacy Act Program, and Section B, Privacy Act Impact
       Assessments.

       4. The SAF/XC POC is Ms. Novella S. Hill, Air Force Privacy Act Officer, (703) 588-7855,
       novella.hiIl@pentagon.af.miI,



                                                 WILLIAM T. LORD, Maj Gen, USAF
                                                 Director, Information, Services and Integration
                                                 Office of Warfighting Integration and
                                                  Chief Information Officer




                                                    63 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Kathryn M. Truex
Karen J. Goff
Robert R. Johnson
Zachary M. Williams
Bryan T. Clark
Xavier R. Zayas
